:

                 :   ’

:    .   .-. 





     Department of Health and Human Services

                      OFFICE OF
                 INSPECTOR GENERAL




     Experiences of Health Maintenance Organizations 

                          with 

         Pharmacy Benefit Management Companies 





                             JUNE GIBBS BROWN
                             Inspector General

                                     April 1997
                                   OEI-01-95-00110
                      OFFICE OF INSPECTOR GENERAJL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department of Health and Human Services
programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management problems and recommends legislative, regulatory, and
operational approaches to correct them.




                       Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several         components of the 

Office of Inspector General. It conducts short-term management           and program 

evaluations (called inspections) that focus on issues of concern to      the Department, the 

Congress, and the public. The inspection reports provide findings         and 

recommendations    on the efficiency, vulnerability, and effectiveness     of departmental 

programs. 


OEI’s Regional Office prepared this report under the direction of Mark R. Yessian, 

Regional Inspector General. Principal OEI staff included: 


BOSI’ON REGION                                     l3EADOUARmRS 

Martha B. Kvaal, Deputy Regional                   Mary Beth Clarke, Branch Chief 

Inspector General 

Russell W. Hereford, Ph.D., Project Leader
Elizabeth A. Robboy, Program Analyst




To obtain a copy of this report, call the Boston Regional Office at 617-565-1050 or
send a fax to the office at 617-565-3751.
Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




Experiences of Health Maintenance Organizations 

                     with 

   Pharmacy Benefit Management Companies 





                        Inspector      General

                                April 1997
                              OEI-Ol-9540110
                             EXECUTIVE               SUMMARY


PURPOSE

To examine the experiences of health maintenance organizations, particularly those
participating in Medicare or Medicaid, in contracting with pharmacy benefit management
companies.

BACKGROUND

hiEDICAID AND MEDICARE COVERAGE OF PRE!SCRIPTION DRUGS

In 1994, national expenditures on prescription drugs were $52 billion, up from 

$21 billion in 1985. The Medicaid program accounted for $9 billion of these 

expenditures (8 percent of all Medicaid expenditures).   The Medicare program has 

limited its coverage of outpatient prescription drugs to a few specific categories of drugs. 

But recently, many beneficiaries have been receiving broader outpatient drug coverage as 

an additional benefit offered by Medicare-risk health maintenance organizations 

(HMOS). 


PHARMACYBENEFlT       MANAGEMENT     coMPAIvIE!s

Pharmacy benefit management companies (PBMs) have emerged as significant players
that can help payers and health plans control rising drug costs and improve drug therapy
of their providers and to their patients. The HMOs, among others, can contract with
PBMs for services ranging from claims processing to disease management programs
involving patients, pharmacists, and physicians.

THISINQUIRY

This inquiry focuses on the experiences of HMOs in using PBMs. As enrollment in
managed care continues grows and because PBMs can significantly affect patients’ use of
prescription drugs, it is important for the Health Care Financing Administration (HCFA),
as well as private payers, to be informed about the HMOs’ experiences with them.

This report is based primarily on data from a mail survey of all HMOs in the country, for
which we had a 71 percent response rate. We also drew on discussions with staff from
the U.S. Department of Health and Human Services (HHS) and several State Medicaid
agencies; with non-government experts; and on a review of the literature.

EXPIZIUENCES       OF HMOs WITH PBMs

WIDESPREAD      AND GROWING USE OF PBMs

Three-fourths    of the 263 f-IhtC~ IC,FOndiyig to OUTSUF\.CJ CC?I;~TLTC~
                                                                      \vit!; I’1311 corcpmies.
The number using PBMs has nearly tripled since 1993. A majority (74 percent) of these
HMOs serve Medicare and/or Medicaid beneficiaries.
Nearly all HMOs use PBMs for services that affect patients’ use of prescription drugs,
such as managing formularies and reviewing drug therapy decisions of physicians,
pharmacists, and patients.

In the future, many HMOs will use PBMs in ways that influence patient care even more
directly through purchasing more clinically. focussed services and through negotiating
more capitated or risk-sharing contracts.

POTENTIAL COSTSAVINGS:    THE BIGGEZZ Bl3NFTlT

The HMOs describe the benefits of using PBMs mainly in terms of controlling costs of
prescription drugs. They also consider other important benefits to be improving
physicians’ prescribing practices and patients’ access to pharmacy services.

POTENTIAL BIAS: -IT-E BIGGEST CONCERN

The HMOs’ biggest concern about PBMs is the potential for bias resulting from the
PBMs’ alliances with drug manufacturers. One-half (52 percent) of the HMOs contract
with one of the five, large PBMs, each of which is owned by or allied with drug
manufacturers.

Other concerns to HMOs include confidentiality of data, disclosure of information   to
patients, and the HMOs’ own oversight of the PBMs’ performance.

MINIMAL OVERSIGHT OF PERFORhfANCE

The HMOs rely primarily on PBM-supplied data and reports for overseeing their PBMs’
performance. They rely less on independent assessments from their own clinicians and
patients.

The HCFA and State Medicaid agencies we contacted provide minimal oversight of their
Medicare and Medicaid HMOs’ subcontracts with PBMs or their HMOs’ pharmacy
programs in general.

The major, private accreditation programs for managed care organizations neither
accredit PBMs nor review HMOs’ pharmacy programs and the arrangements they may
have with PBMs. In part, this inattention reflects a lack of quality measures suitable for
assessing pharmacy programs in these settings.

RECOMIMENDATIONS

 Ihe HCFA should take steps to ensure that its Medicare HMOs are su#icientLy accountable
for the qudty of the senricestheirPBMs pm&ie to ben@ciaries.

The HCFA could take steps toward this end by strengthening its contract requirements
for Medicare HMOs and by incorporating reviews of pharmacy programs in its uvtxsigt
of the HMOs’ performance.



                                                 ii
Similkly, State Medicaid agencies should take steps to ensure that their Medicaid HMOs are
qiJicient@ accountable for the quali@ of the servicestheir PBMs provide to beneficiaries.

State Medicaid agencies could take steps similar to those suggested above for HCFA and
its Medicare HMOs. The HCFA could work with States towards this end.

l%e HCFA, the Food and Drug Ad%ni~ation, and the Health Resources and Services
AaXnidration, working together with external organizations, should build on existing Mo~ZY
to develop quality measures for pharmaq practice that can be used in munaged care settings.

The pharmacy profession has begun to develop a framework of standards and measures 

that can be used to assess the quality of pharmacy services and programs. Continued 

development of this framework is essential. It needs to involve the significant parties 

who have responsibility for ensuring that pharmacy programs rest on foundations that are 

clinically sound, widely accepted, and promote improved patient care. These parties 

include the professional pharmacy and medical organizations, the private accreditation 

organizations, consumer groups, and the managed care industry. 


COh4MEN-B ON THFi DRAFT REPORT 


We received comments on the draft report from the Health Care Financing 

Administration (HCFA), the Food and Drug Administration (FDA), and the Health 

Resources and Services Administration (HRSA). We also solicited and received 

comments from the Academy of Managed Care Pharmacy (AMCP), the American 

Medical Association (AMA), the American Pharmaceutical Association (APHA), the 

American Society of Health Systems Pharmacists (ASHP), the Consumer Coalition for 

Quality Health Care, and HCFA’ s Medicaid Pharmacy Technical Advisory Group. We 

include the complete text of the detailed comments in appendix D. Below we summarize 

the major thrust of the comments and, in italics, offer our responses. We made a few 

minor edits in the report in response to the comments. 


HCFA, FDA, HR!SA CO-

All three agencies concurred with our recommendations.

In concurring with the first recommendation, HCFA identified current requirements for
its contracts with HMOs and summarized its current approaches for monitoring their
performance. In our view, thk response does not substantively address a central concern
raked in this report about HCFA ‘s minimal oversight of its HMOs ’ pharmacy programs and
their subcontracts with PBMs. We believe our findings warrant more attention by HCFA.
Its HMO contract, as we point out, could be an important vehicle for strengthening Medicare
HMOs ’ accountability for their pharmacy programs.

The   third recommendation,     for   HCFA, FDA, and HRSA to work with external
organizations   on deveioping   quaiity   rncasures   ior pharmacy   pracrice,   was favurkibiy
received by all three agencies. We encourage the agencies to meet together and to
identify one among them to assume lead responsibility, so that enhanced communication

                                                      .. .
                                                      111
and coordination   may facilitate continued progress in developing these measures.

JXIERNAL   ORGANIZATIONS’   COh4MEN-B

All the outside organizations concurred with our recommendations.     Some call for
revisions to the report or other actions on our part. We appreciate that these
organizations support our recommendations.   Unfortunately, many of the comments suggest
actions beyond the scope of this inquiry.




                                              iv
                                      TABLE                   OF            CONTENTS 



                                                                                                PAGE 



Executive Summa.ry 


Introduction..     .................................................... 
                         1

Pharmacy benefit companies: the basics ................................. 
                        4

WhichHMOs usePBMs                     ............................................ 
              5

How HMOs use them                .............................................. 
                 6

Potential benefits of using PBMs                     ...................................... 
     7

Concerns about using them                  ......................................... 
           10

Overseeing PBMS’ performance ...................................... 
                            13

Recommendations           ................................................ 
                     15

Comments on the draft report ....................................... 
                           18

Appendices

 A: Methodology           ...............................................                       A-l

 B: Nonrespondent            analysis         .......................................           B-l

 C: 	 Summary of HMOs’ responses to OIG mail survey ...................                         C-l

 D: Complete       comments on the draft report ...........................                     D-l

 E: Notes..      ...................................................                            E-l
                                     INTRODUCTION 



PURPOSE

To examine the experiences of health maintenance organizations, particularly those
participating in Medicare or Medicaid, in contracting with pharmacy benefit management
companies.

BACKGROUND

l&e Growth of Managed Care

During the 199Os, America’s health care system has been transformed by the rapid
growth of managed care systems for financing and delivering health services.
Enrollments in managed care plans, particularly health maintenance organizations  .
(HMOs), are increasing dramatically as payers, both public and private, and consumers
seek to contain the rising costs of health care.’

  This shift to managed care has moved to center stage for both the Medicare and
  Medicaid programs as well. As public payers of health care for the elderly, disabled,
  and indigent, States and the Federal Government, through the Health Care Financing
  Administration (HCFA), have encouraged the enrollment of Medicare and Medicaid
  beneficiaries into managed care arrangements.      The number of Medicare beneficiaries
  receiving services through managed care plans has tripled since 1990 (now around
  4.5 million or 12 percent of all beneficiaries), and the number of Medicare-risk
  managed care programs is increasing rapidly. 2 Similarly, enrollment of Medicaid
  beneficiaries in managed care arrangements was around 39 percent as of June 1996, up
  from 10 percent in 1991.3 Enrollment continues to grow.



  Spending on prescription drug costs has been increasing annually; in 1994, expenditures
  on drugs was nearly $52 billion, up from $21 billion in 1985. The proportion of these
  costs borne by third-party payers was 58 percent, up from 45 percent in 1985.4

  Medicare and Medicaid beneficiaries together constitute the largest segments of the
  outpatient prescription drug market. All States’ Medicaid programs cover outpatient
  prescription drugs for beneficiaries enrolled in managed care plans and in the fee-for-
  service system. The costs of prescription drugs to Medicaid was nearly $9 billion, or
  8 percent of total Medicaid spending in 1994.s The Medicare program, on the other
  hand, has limited its outpatient drug coverage to a few categories of drugs, such as
  immunosuppressants and cancer drugs. However, Medicare is now, in effect, supporting
   broader   outpatient   prescription   drug co\leragt: as its risk FYI>~~CS
                                                                            reij: more aiid i;iore on
   this additional benefit to attract Medicare enrollees, many of whom have no drug
   coverage at all.6


                                                   1
To the rising costs of prescription drugs can also be added the estimated billions of
dollars annually in health costs resulting from mismedication of patients and their
noncompliance with drug therapies. These problems are particularly acute among the
elderly and are costly for Medicare.’

The Evolution of Phannucy BenejTt Management Companies

Pharmacy benefit management companies (PBMs) have emerged as important players 

in the health care system. They are relied upon by many payers and health plans to 

contain rising pharmacy costs. PBMs bring to the table sophisticated, on-line 

computer systems that enable them to verify immediately enrollees’ eligibility and to 

rapidly process prescription claims for payment. Many PBMs offer other services 

helpful in managing prescription drug benefits such as systems for delivering 

prescriptions by mail and networks of community pharmacies that participate in 

particular health plans. Some PBMs have teamed their computer capabilities with 

their massive databases of prescription claims to offer more sophisticated services such 

as formulary management services, drug use reviews, and education programs. Finally, 

a few are now pioneering disease state management programs as well as research 

programs to assess cost-effectiveness and outcomes of drug therapies. 


The influence of PBMs in the marketplace has been growing steadily. They managed 

benefits, in 1993, for an estimated 100 million people, around 40 percent of the U.S. 

population. While several dozen PBMs are active in the marketplace, a handful of 

firms dominate. Estimates suggest that, in 1995, the 5 largest PBMs managed benefits 

for 80 percent of all health plan enrollees served by PBMs.~ 


lb   Potentid in Using Pharmacy Benejit Management Companies

PBMs are attractive to payers and health plans, such as HMOs, because of their
potential to contain escalating pharmacy costs. And PBMs can help improve health
outcomes for patients by influencing physicians’ prescribing, pharmacists’ dispensing,
and patients’ compliance with their drug therapies.

At the same time, the financial imperatives driving managed care arrangements have
potential for compromising the quality of pharmacy programs. Quality can be
compromised by the way payers and plans structure the pharmacy benefit and by the
approaches they use to manage it.’

Concerns about the effect of PBMs on the quality of pharmacy programs have
intensified because of the business relationships that exist between PBMs and drug
companies. In fact, 3 of the 5 largest PBMs are now owned by drug companies.”
Questions of bias and conflict of interest have been raised about the relationships
between PBMs and drug companies. And issues of potential anti-competitive trade
practices   rssociated   >,iriththe n-er~~ra~ in pnrticxlnr,   hove been of c3nce.m   tr, the
Federal Trade Commission.”



                                                  2

THIS INQUIRY

This inquiry focusses on the recent experiences of HMOs who contract with PBMs.
As managed care plans continue to grow, HMOs are increasingly important purchasers
of PBM services. The relationships between HMOs and PBMs are especially
significant to the Department of Health and Human Services (HHS) because of the
growing number of its beneficiaries enrolling in HMO programs. The Food and Drug
Administration (FDA) has questioned the adequacy of drug product information
disseminated by PBMs to physicians, pharmacists, and patients as they manage
formularies and influence the drug products prescribed and sold.12 And the Office of
Inspector General (OIG) also questioned prescription drug marketing practices in a
1994 Special Fraud Alert.

We intend this inspection to provide pertinent information to HCFA, State Medicaid
agencies, and other payers who need to be well informed about the extent, nature, and
consequences of HMOs’ arrangements with PBMs.

METHODOLOGY

We relied on four sources of information for this report (a fuller description of our
methodology is presented in appendix A).

  b	     A mail survey of all HMOs in the country is the primary source of
         information. We surveyed 368 decisionmakers (either the chief executive or
         the head of pharmacy services) responsible for decisions about PBMs for
         their HMOs. Our universe included 26 executives from national or regional
         managed care organizations who represent their organizations’ 283 affiliated
         local plans. The remaining 342 executives each represent local HMO plans
         unaffiliated with any national or regional managed care organizations. These
         368 decisionmakers represent 625 local plans nationwide, which served
         nearly 54 million enrollees in 1995. Overall, 263 of 368 decisionmakers
         (whom we refer to, as “HMOs” in this report) responded to our survey. This
         is a response rate of 71 percent.
  b      Telephone discussions with HCFA staff in both headquarters and 6 regional
         offices and with Medicaid officials from 9 States.
  b      Discussions with experts and analysts knowledgeable about managed care,
         pharmaceutical care, and pharmacy benefit management.
  b	     A literature review including journals and newsletters, reports and analyses,
         government documents, documents from professional and trade
         organizations.

We conducted this study in accordance with the QuaZity Standards for Inrpections
issued by the President’s Council on Integrity and Efficiency.




                                          3

                    PHARMACYB~FITMANAGEMENT                           COMPANIES          THE BASICS

The demands for efficiencies and savings in the managed health care marketplace have spawned a new player: 

the pharmacy benefit management company.13 Evolving from their early years as prescription claims 

processors, PBMs are now major actors on the pharmacy scene with complex, influential roles in the mix of 

payers, health plans, consumers, physicians, pharmacists, pharmacies, and drug manufacturers. Health plans, 

among others, contract with PBMs for particular benefit management services. PBMs’ services typically fall into 

three categories: 


The Busic Saviccs focus primarily on the systems management          functions of a pharmacy benefit: 


   . CZ&r.s processing: processing individual prescription claims for payment; may also involve confirming the
patient’s eligibility and the compliance of the drug with the benefit’s formulary.
   . On-line pharmacy networkx contracting with individual community-based pharmacies to form a network of
providers participating in the health plan.
   . Mail order services: using mail order pharmacies to supply prescription drugs via mail rather than through
retail pharmacy settings.

The Zntamediate Services focus on the purchasing power of PBMs and their capacity to screen large databases of
prescription claims for utilization and quality issues. These services can have greater impact on patient care than
the basic services.

  �  Formulary development and management: evaluating and selecting which drugs to include on the lists of
preferred drugs (formularies) for use by the health plans’ enrollees. PBMs decide which drug classes to include
as well as which drugs within those classes and the priority ranking for each. The process involves applying cost
and clinical criteria for choosing among the many drugs available from different manufacturers.   PBMs can also
manage the formularies on behalf of health plans. They use practices agreed to by the health plans such as
requirements for authorization prior to diipensing a particular drug; limits on the frequency or numbers of
prescriptions or refills allow@ and drug product substitution programs by which pharmacists, acting on behalf of
the PBM, dispense different drugs from those initially prescribed.

  �  Drug llse review: examining the use of prescription drugs using predetermined      cost and/or quality criteria.
Prospective review screens individual prescriptions before they are filled to identify quality or utilization problems.
Retrospective review occurs after prescriptions are filled and the claims submitted for payment. It involves
screening large numbers of claims to identify inappropriate prescribing or dispensing practices, possible
fraudulent activity, or noncompliance by patients with their drug therapies.

  �    Education:    intervening with physicians, pharmacists, and patients to change drug therapy practices.

The Enhrmecd Servicer are the most recently developed services that involve PBMs substantively in the ways
drugs are used and in managing patients’ care.

  �  Outcomes/cost-effectiveness research: using the PBMs’ massive databases to inform research on the cost-
effectiveness or outcomes of drugs and drug therapies.

  �  Disease state management: managing the dii           of groups of patients through improved drug therapies,
particularly focussing on those chronic diseases, such as diabetes and asthma, which can be effectively treated by
prescription drugs but which can result in costly illness without adequate management.




                                                           4

                               WHICH HMOs USE PBMs


Three-fourths of the 263 HMOs responding to our suxvey contract with PBM
companies. The number using PBMs has nearly tripled since 1993. They served
45 percent of all enrollees in HMOs in 1995.

                                               Figure 1

                            EXTENTOF          USE OF   PBMs      BY HtVloS




                                                          HMOs resp01~Jingthat use PBMs




                                                                  Covered lives: 11.3 milliion

               HMOs respondingthat da not use PBMs
                N-64
                Covered lives: 18.6 million
                                                Sources:OIG di   surveyof HMOs,June1996
                                                ndQHWAMCRA19954WWOdHdlhkrsMredory.




A majority of the HMOs using PBMs:

  b    serve Medicare and/or Medicaid beneficiaries (74 percent);14
  b    contract with one of the five, large PBMs, each of which is owned by or allied
       with drug manufacturers (52 percent); and
  b    are for-profit plans (61 percent).15

A larger proportion (77 percent) of the unaffiliated, local HMOs use PBMs than do
the local plans affiliated with national or regional managed care organizations
(46 percent).r6

The number of enrollees affected by PBMs is significant and will likely continue to be
so. The i%vlOs indicating     that the)’ use PI3Jds covered         2 4 I~~~]]~~,II
                                                                                li*,ies in 1995.   T];i::
estimate no doubt underreports the actual number, because data were not reported by
all HMOs, and, since then, enrollments in HMOs have been increasing steadily.17


                                                  5
                                  HOW HMOs USE PBMs


Nearly all HMOs use PBMs for services that-affect the use of prescription drugs by
patients. Most rely on PBMs to develop or manage their formularies and to review
drug use by physicians, pharmacists, and patients.

All but four HMOs use their PBMs for services other than claims processing. Nearly
all HMOs contract for multiple services: an average and a median per HMO of 7 of
11 different types of services (see service types in Figure 2). Nearly all HMOs use at
least one of the basic services (97 percent) and at least one of the intermediate
services (96 percent). Far fewer (41 percent) contract for either of the enhanced
services. Those HMOs that serve Medicare and/or Medicaid beneficiaries do not
differ significantly in their use of services from those HMOs that do not.18

                                                     Figure 2

         PROPORTIONOFHMOSUSINGPBMSERVICE&BYTYPEOFSERVICE 


                         Basic savias
                              !M%aaimsPkdg
                              74%Phamlaq­
                              46%hbilordcrXClViCCS

                         lntclmuliatc   savim
                              84%RcmqcbeDUR 

                              81%PmspcukDrugUseRcvim(DUR)maoagcment 

                              7l%FamutaryumnqmaM 

                              62 % Formulay dcvdapnent 

                              5696EMllCdOllOFindividualpmvidasandlorpIicnts 

                              4296Ekhcaththrough~bascdoutrcach~ 





                         N==199HMOs 

                         Sounx OIGmailsumqofHMOs,Junc19%. 





In the years ahead, many HMOs expect to use PBMs in ways that influence patient
care even more directly. They are likely to use services that are more clinically
focussed and to use more capita&d or risk-sharing contract arrangements.

Fifty-two percent of the HMOs are considering changes in the mix of services they will 

purchase from PBMs. Most commented specifically about adding disease state 

management    programs   and various            educational!v   focussed   intewention   programs 

targeted to providers and patients. Approximately                 40 percent may negotiate contracts 

that increase their PBMs’ share of financial risk. 



                                                       6

                    POTENTIAL, BENEFITS OF USING PBMS


HMOs describe the benefits of using PBMs mainly in terms of controlling 

prescription drug costs and, to a lesser extent, overall health care costs. 

Improving physician prescribing is the second most important benefit to the HMOs. 


                                               Figure 3

                             POTENTIAL      BENEFlTS   OF USING    PBMs




                Control drug costs



               Control overall costs



               Improve presaibing
                                       I


                Improve dispensing



        Improve patient axnplianca



                   lmprwe access
                                                                                L

                                       0%    20%       40%        60%     80%   100%




         Containiw costs: l%e HMOs report that the biggest benefit of using PBMs ir their
ability to help conbvl prescription dug costs. Nearly ail (80 pemnt) think PBMs help
themcontainthesecosrstoeirheragreat~(35percent)oramodemte~(44
percent). Slightly more than half(55 percent) think PBMs hep to either a great or a
modenzte degree in containing ovemil health care costs.

       Dnrg COSCS:T’r,c fcrmu!zrizs dewloped by PR$,?skz-,,t:thy potentjzl tn rezlix
savings in drug product costs.‘g PBMs negotiate with manufacturers for discounts
and rebates on drugs in return for including the companies’ products on the PBMs’
formularies.20 The PBMs, in turn, can share a portion of these rebates with the
HMOs. PBMs also negotiate with community pharmacies for lower dispensing fees
and drug reimbursement levels. In return, the pharmacies become participating
providers in the retail networks managed by the PBMs for the HMOS.~’

In addition, HMOs can purchase other services from PBMs that have the potential to
lower costs. PBMs can manage formularies for HMOs using techniques such as prior
approval programs or substitution programs that favor lower priced drugs. And by
profiling physicians’ prescribing practices to identify patterns of costly drug use, PBMs
can help HMOs lower utilization of high priced drugs.22

Several HMOs specifically commented to us about the ways they had realized savings
from their PBMs. Only one HMO specified an estimate of actual savings achieved:
“10 to 25 percent gross savings from pharmacy discounts and formulary rebates.” A
recent study of PBMs, conducted under contract with HCFA, found it difficult to
determine and substantiate cost savings attributable to PBMs. Often the data are
unavailable because PBMs consider them proprietary, and common baselines for
comparing data do not exist.23

         Overall health costs: PBMs may lower health costs overall as they improve
patients’ drug use more generally. Some PBMs are launching disease state
management programs, 24which, as noted above, are increasingly attractive to HMOs
for their potential to lower overall health care costs for patients targeted for these
initiatives. The extent of savings in health care costs, like savings in drug costs, has
been difficult to document.=

        Immvinn ~IURtheravv: llae HMOs think that PBMs are helpjid in improving the
prewibikg pm&~        of physikians. Neanly two-third (65 percent) think PBMs he@
physicians to either a great extent (I6 percent) or a rnodkmte extent (49 pemmt). They see
PBMs as l&s he&id in improving the carepnnkied by phamaci& or the compliance of
patient5 with their drug regbnens.

PBMs have the capacity, with their sophisticated, on-line computer systems and their
large databases of prescription information, to help HMOs improve the quality of drug
therapy of physicians, pharmacists, and patients. They can identify poor prescribing
and dispensing practices of providers and can identify those patients who are not
complying with their drug regimens. x They can identify potential problems before
prescriptions are dispensed; they can profile patterns of drug use retrospectively. And,
once having identified inappropriate drug use, PBMs can intervene individually with
patients, pharmacists, or physicians through one-on-one interventions or through
broadly based education programs such as newsletters or targeted mailings to groups
of providers or patients.

Yet HMQs    do no: reFo:i   :;;:z!:i:i~ e>;:exb,,c p:’ (\f
                                                        ,. pp‘, ,,5:; f-r>:-
                                                                        , :~(~cc-i:Ljyir“1,*;,
                                                                                          Y-l?:n-,+.-
                                                                                            L,IL.i., ;y-A
                                                                                                        *L
providers about drug therapy. Not quite half (43 percent) report the;’ use PBMs to
intervene with individual physicians to improve the quality of their prescribing. Very
few (15 percent) use PBMs to intervene with individual patients identified as being
noncompliant with the prescribed drug therapy. Most do not use PBMs to conduct
broadly based education to improve drug therapy that is targeted to the HMOs’
providers (62 percent) or to their enrollees (78 percent).

Disease management programs, as noted above, have potential to lower overall health
care costs by targeting specific groups of patients with expensive chronic illnesses that
are amenable to treatment with prescription drugs. These programs are still in their
infancy in most settings. Their potential for containing costs and improving therapy is,
as yet, unproven.

The HMOs report using PBMs most frequently for profiling physicians’ prescribing
patterns (79 percent); profiling dispensing patterns of pharmacies/pharmacies
(66 percent); and for screening individual prescriptions for therapeutic
contraindications at the point of dispensing (76 percent).

        Im~mvin~   access: Slight& more than one-half (56 pemmt) of the HMOs think
PBMs are at least moderately usefir in improving access to phumacy services. But HMOs
rate this beru@ as least wejid of a/L- approximateij 20 penmat think PBMs either are not
at all usejid (13pemmt) in improving access or respond that they do not know (8
percent).

In using PBMs for mail order services or for the PBMs’ networks of retail pharmacies,
HMOs can expand the access of consumers to drug products.        Yet some argue that
these arrangements are reducing the profitability of retail pharmacies, thereby forcing
many to close.”
                         CONCERNS ABOUT USING PBMIs


The HMOs’ biggest concern about PBMs is the potential for bias resulting from their
alliances with drug manufacturers. They are also concerned about confidentiality
issues and about their own oversight of the PBMs’ performance.

                                             Figure 4

                                  CONCERNS   ABOUT   USING    PBMs




                    Potential for bias -


                 Limited peer review ­


            lnsuffident accountability -


                          Disclosure -


               ConfidenUaMyof data -


            Fragmentation of services -


         Inadequate drug information -


                                       0%    20%        40%    80%   80%   100%

       � �         ���������
          ����������� 
             � 
              �������������
                       �����
                        Notat All
                                  •IUI
                                       DonYKnow


       Soufc~OIGmsilsurveyofH~June1QS6.




       Potential for bias: lSty (30) percent of the HMOs are very concernedabout
bias. The HMOs ident@ bias as their most seriousconcern 3 tinm as often as any other
concem.
This high degree of concern is all the more striking when one considers that these
HMOs are among those who are currently contracting with PBMs; they are not among
those who have chosen to manage the benefit themselves.28

The concern is that PBMs may bias their programs to favor their industry partners
and, in so doing, compromise the quality of the HMOs’ drug use practices and the
patient care they provide. Particularly vulnerable areas include formularies, drug use
review programs, educational interventions, and cost-effectiveness research.

         Forrnularies:  Vulnerabilities can arise if PBMs are not sufficiently independent
of the manufacturers’ interests when developing their formularies and if they do not
pay sufficient attention to therapeutic considerations when choosing which drugs to
include .2g Similarly, when managing formularies for the HMOs, PBMs can use
substitution programs in which the drugs dispensed differ from those prescribed. The
quality of patient care can be compromised if these programs are primarily marketing
efforts conducted by PBMs on behalf of their industry partners3’ rather than
clinically sound practices, guided by predetermined protocols that promote quality
drug use.

        Drug use review programs: The underpinnings of drug use review programs are
the criteria and standards that guide the screening of claims and the profiling of
prescribing and dispensing patterns of providers. The frameworks underlying the
reviews can be structured to emphasize cost savings factors over quality considerations.
Vulnerabilities can arise when PBMs choose the criteria and interpret the data for the
HMOs while also having financial interests in the results of these reviews?’

       Educational interventions: PBMs can intervene     directly with providers and
patients to educate them about drug products, drug use, and, increasingly, about
managing particular diseases. These interventions are guided by protocols for drug
use and information about drug products. The quality of patient care can be
compromised if these efforts become marketing tools for PBMs and manufacturers
rather than clinical tools for improving drug therapies.32 The quality of drug product
information disseminated by PBMs to physicians, pharmacists, and patients is a minor
issue for the HMOs responding to our survey (see Figure 4). But government
regulators and some professional organizations have concerns about the product
information distributed by PBMs.~~

        Cost-effectiveness reseurch: The PBMs’ databases have significant value for
outcomes studies and cost-effectiveness research on drugs and drug therapies. This
kind of research is becoming more and more important in drug product marketing and
for decision-making by PBMs, among others, about which drugs to position on
formularies or which drugs to use when treating specific illnesses. The potential for
bias in this research poses vulnerabilities for these kinds of clinically significant
decisions.34




                                             11 

        CimMentiu& issues= The HMOs are somewhat concemed about conjidendaliry
ksues associated with using PBMs. About one-fourth (23 percent) are concerned, to
either a rrwdemte or a great extent, about PBMs disckxbag confidential patient
infomation. And about one-fourth (24 percent) are equally concerned about HMOs’ not
disclosing their arrangements with PBMs to endle~.

       Confidentiality of patient data: The PBMs’ databases  are rich sources of
information about which patients are using which drugs and which physicians are
prescribing which drugs. 35 Increasingly, PBMs are gaining access to patients’ medical
data as well as their pharmacy records, so the databases can be linked for clinical
services such as disease management programs.% Questions arise about whether
PBMs adequately safeguard these data, particularly patient-identifiable  information,
from employers or drug manufacturers, for example.37 Most HMOs are not
concerned about this issue (see Figure 4). Several said they secure patient
information through specific language in their PBM contracts. Yet questions linger,
because HMOs, as one indicated to us, would not necessarily know of breaches of
these confidentiality provisions by their PBMs.

       Disclosure to patients: How much information    HMOs should disclose to
enrollees about their use of PBMs and their practices for managing the drug benefit is
germane to the larger, national debate over patients’ rights to know details of their
HMOs’ policies and practices. Disclosing pharmacy-related information is relevant
here, because, as we have seen, physicians’ prescribing choices, and thus the quality
and extent of drug therapies available to patients, are significantly influenced by the
ways in which HMOs structure and manage their pharmacy program with the
PBMs?

        Insu@ient accountabilitv and limited txer review: The HMOs’ second rrwst
se&m concern about PBMs a&k with the adequacy of their own ovem&ht of the PBMs’
perf onruznce Neaj, one-M      (32percent) are conch      to eiiher a moderate or a great
eWnt, that HMOs receive information from PBMs thut is iitsuj@ierU for holding them
accountable. And one-third (34pemmt) are similajt concemed that the HM0s’pee-r
mvieivs of PBMpmgmms are limited

The number of HMOs greatly concerned about oversight are fewer than those
similarly concerned about potential bias. But about the same number are moderately
concerned about the adequacy of peer review and accountability (see Figure 4). It is
noteworthy, however, that among those HMOs who have few concerns about using
PBMs, several specifically commented that they would be much more concerned were
it not for the protections their HMOs have adopted. These include such practices as
tight contractual language, using their own clinicians to review PBM programs, or not
relying on PBMs for particular services like educational interventions or formulary
development.




                                           12 

                  OVERSEEING PBMs’ PERFORMANCE



The HMOs rely primarily on PBM-supplied data and reports for overseeing their
PBMs’ performance. They rely less on independent assessments of the PBMs
performance from their own clinicians and patients.

In overseeing the performance of their PBMs, almost all HMOs (1) receive written
reports from their PBMs (99 percent) and (2) use their own staff to analyze these data
(97 percent). 3g Most HMOs (approximately 82 percent) consider these approaches
either moderately or very useful. Some buy the PBMs’ reports “off the shelf.” Others
customize them or develop their own; a few said they can access the PBMs’ raw data
to do their own analyses. The reports typically feature utilization and cost data or
profiles of drug use. Nearly two-thirds (63 percent) of the HMOs use performance
measures or guarantees to oversee their PBMs; a few commented specifically that they
use these indicators and other data to benchmark their PBMs’ performance with those
of other HMOs.

A few HMOs commented specifically about the importance of an HMO conducting its
own independent assessments of its PBM’s programs. These include such approaches
as using its own clinicians to review the PBM’s formularies, drug use protocols ‘or drug
product information the PBM sends to clinicians and patients. They also include
approaches, such as surveys and grievance procedures, that enable the HMO’s
physicians, pharmacists, and patients to give feedback on the PBM’s programs.

Our data indicate, however, that the HMOs rely less on these kinds of independent
assessments than they do on PBM-supplied data and reports. For example, 24 percent
of the HMOs do not use their own Pharmacy and Therapeutics Committee to peer
review their PBMs’ programs; 38 percent do not perform their own drug use reviews
of PBMs’ analyses; 51 percent do not conduct on-site monitoring visits; and 65 percent
do not use outside consultants to review their PBMs’ programs.

Overall, it is not clear from our review just how substantive and independent are the
efforts by HMOs to oversee the performance of their PBMs. Nor is it clear the extent
to which HMOs balance their concerns about cost containment with the effects their
PBMs may have on the quality of their pharmacy programs.40

The HCFA and State Medicaid agencies we contacted provide minimal oversight of
their Medicare and Medicaid HMOs’ subcontracts with PBMs or their HMOs’
pharmacy programs in general.

The HCFA does not have requirements specific to the content or management of the
pharmacy benefits offered by its Medicare HMOs.  Neither does it include clinical or
management reviews of the HMOs’ pharmacy benefit during its certification or annual
monitoring of the HMOs. The HCFA does have guidelines for the content of the


                                           13
HMOs’ marketing          materials, and it does address pharmacy benefits in its reviews of
these materials.

The Medicaid agencies we contacted, in those States that include pharmacy services in
their Medicaid HMO contracts, also have no requirements specific to the HMOs’
subcontracts with PBMs, and few for the HMOs’ pharmacy programs generally. Most
typically, the States require only that the HMOs not use formularies more restrictive
than the Medicaid fee-for-service formularies. They generally do not monitor either
the PBMs’ activities or the HMOs’ pharmacy programs.

The major, private accreditation programs for managed care organizations neither
accredit PBMs nor review HMOs’ pharmacy programs and the arrangements they may
have with PBMs. In part, this inattention reflects a lack of quality measures suitable
for assessing pharmacy programs in these settings.

These accreditation programs include those of the Joint Commission on Accreditation 

of Health Organizations (JCAHO), the National Committee for Quality Assurance 

(NCQA), and the Utilization Review and Accreditation Commission (URAC).41 42 

This lack of attention to pharmacy issues results, in part, from these organizations 

having focussed initially on establishing a process suitable for medical operations in 

managed care settings. Of necessity, pharmacy-related issues have not been a top 

priority. 


To some extent, too, their inattention reflects an underappreciation  of the 

contributions of pharmacy to patient care and a lack of quality measures suitable for 

assessing pharmacy programs in these settings. In recent years, several pharmacy 

organizations have been working to redefine the essence of outpatient pharmacy 

practice to emphasize the clinical contribution of pharmacists as members of the 

health care team. This process continues; it is a major, long-term effort involving 

restructuring academic curricula, negotiating reimbursement systems for pharmacists’ 

clinical services, and educating accreditation groups and other health care providers, 

payers, and the public about the role and significance of pharmaceutical care. 


Pharmacy has been slow to develop quality measures of performance that can be used 

by these accrediting groups, by payers, and by health plans. The process is inherently 

difficult. It has been perhaps more so for pharmacy, which has been focussed on 

redefining the essence of outpatient practice. The process has also demanded input 

from several large, national pharmacy organizations, which, at times, have had 

different and sometimes competing interests. Nonetheless, these organizations, 

concerned with quality issues in outpatient settings, recognize the importance of 

developing quality assurance programs for the clinical dimensions of pharmacy 

practice. Several have developed guidelines or standards for use among their own 

membership. 43 And they have begun recently to meet together to explore areas of 

commonality        and to re::,ch out tc? ::l;:jo: pay33    and the r‘,:;:ion:i! 2i:creditafion 

organizations. 




                                                     14 

                         RECOMMENDATIONS 




Our inspection does not provide a basis for assessing the effectiveness of PBM services
purchased by HMOs. Nor does it provide a basis for determining that pharmacy
benefit management by PBMs is more or less preferable for achieving high quality
pharmacy programs in HMOs. Our inquiry does, however, offer sufficient basis for
concluding that payers, when overseeing the performance of their HMOs, need to
devote attention to their HMOs’ pharmacy programs and their use of PBMs. We base
this conclusion on the following:

  b	   The HMOs use various approaches for overseeing their PBMs’ performance.
       But the effectiveness of these efforts in holding PBMs accountable for the
       quality of their services is not clear.

  b	   The Medicare and Medicaid programs, both large public payers, devote little
       attention to the arrangements of their HMOs with PBMs or to their HMOs’
       pharmacy programs more generally.44 And, as we have seen, neither payers
       nor the public can count on the private accreditation organizations for
       assurances of quality and accountability in the HMOs’ pharmacy programs.

  b	   Yet, pharmacy programs have a significant impact on the quality of patient
       care. This is true whether HMOs manage these programs using PBMs or
       internally by themselves. This impact can be positive or detrimental. It is not
       surprising that the HMOs described here, who are demonstrably committed
       users of PBMs, are generally positive about their experiences.

       What is significant to us is the degree to which they have concerns about PBMs
       in areas that bear directly on the quality of patient care. Yet many of these
       HMOs are using PBMs for more clinically oriented services and will be
       negotiating more capitated or risk-sharing contracts with them. These trends
       signal the PBMs’ growing involvement with and responsibility for patient care.

These observations lead us to emphasize the importance of HMOs being accountable
for the quality of the pharmacy programs managed by their PBMs. Payers have
responsibility for ensuring that their HMOs offer high quality care to patients.
Accordingly, we offer three recommendations.     The first two address the Medicare and
Medicaid programs funded by HCFA and the States; they call for operational action
steps that can be undertaken now. The third addresses a larger issue of pharmacy
practice that requires attention of public and private organizations over the long term.

THE MEDICARE PROGRAM

l&e HCFA should take steps to ensure that its ilk&care HMOs are sujjkiently
accountable for the qdity of the servicestheirPBMs provide to benejiciuries.
It is important for HCFA to pay more attention to pharmacy issues in its Medicare
HMOs for several reasons. First, as noted elsewhere, mismedication problems affect
the elderly especially, and the Medicare program, in large measure, bears the costly
consequences of these problems. Second, an increasing number of Medicare-risk
HMOs are offering prescription drug coverage as an additional benefit because of its
popularity with beneficiaries.  While coverage for these benefits is not included in the
basic capitated rate paid to the HMOs, the plans fund these benefits with savings from
the HCFA capitated payments. And, finally, as we have seen here, many HMOs use
PBMs to help manage the prescription drug use of Medicare beneficiaries.

The HCFA could take steps to ensure greater accountability by strengthening its
contract requirements for Medicare HMOs and by incorporating pharmacy reviews in
its oversight of the HMOs’ performance. It could, for example:

  b	   develop language for Medicare contracts that sets forth assurances that the
       HMOs should obtain in their subcontracts with PBMs and that specifies the
       responsibilities the HMOs must assume in overseeing their PBMs’ performance.

       This language could address specific approaches for reducing the vulnerabilities
       the HMOs associate with the use of PBMs that we report here. The HCFA
       could take such steps as requiring rigorous and systematic evaluation of the
       PBMs’ services, independent review of the PBMs’ formularies, drug use
       protocols, and education materials about drug products. It could specify
       language to protect the confidentiality of patient-identifiable information
       contained in the PBMs’ databases.

  b	   include, as part of the ongoing oversight of Medicare contracts, a review of the
       effectiveness of the HMOs’ oversight of the quality of PBM services.

       It could take such steps as reviewing the HMOs’ subcontracts with PBMs to
       ensure that the HMOs are complying with the contractual requirements or
       reviewing the HMOs’ evaluations of PBM services including the
       appropriateness of drug formularies for the elderly. And it could incorporate
       questions about satisfaction with the pharmacy benefit in the surveys being
       developed for use with beneficiaries enrolled in HMOs.

THE MEDICAID          PROGRAM

State Medicaid agenciesshould take steprto ensurethat its Medicaid HMOs are
s@kiimtly accountablefor the quality of the services their PBMs provide to benejkiakx

It is important for States to pay more attention to the pharmacy programs in their
Medicaid HMOs. Pharmacy benefits continue to be a significant component of the
Medicaid   programs   in all States.   As S:r: tcs transition   to managed   care arrangements
for beneficiaries, their risk contracts with HMOs typically include pharmacy services.
As we have seen here, many HMOs report using PBMs to manage the drug benefit


                                                  16
for their Medicaid beneficiaries. 


State Medicaid agencies could take steps similar to those suggested above for HCFA 

and its Medicare HMOs. The States rely on approaches for holding their HMOs 

accountable that are similar to those used by HCFA with its Medicare contracts. The 

States have requirements, for example, for the HMOs’ quality assurance programs and 

for their subcontracts. The States, too, monitor the HMOs and oversee their 

marketing activities. The HCFA could work with the States in achieving greater 

accountability for their Medicaid HMOs. 


THE PRACTICE          OF PHARMACY 


l%e HCFA, the FDA, and the HeaLth Resources and Services Admtitration          (HRSA),
wonking together with external organizations, should build on existing @arts to develop
qudity measure forphannacy pmctice thut can be used in nunaged care settings.

We have called here for greater accountability for the quality of the pharmacy 

programs managed for HMOs by PBMs. Although ours has not been a study of 

pharmacy practice per se, our consideration of the quality issues associated with PBMs 

has led us inevitably to consider the HMOs’ accountability for the quality of their 

pharmacy practices. We conclude that developing an underlying framework of 

standards and measures for assessing the quality of pharmacy services and programs is 

essential. Lacking such a framework, HMOs will find it more difficult to hold their 

PBMs accountable, and the payers and the public will find it more difficult to assure 

themselves of the quality of these pharmacy programs. 


This task will not be an easy one. We have noted in the report some of the difficulties 

facing the pharmacy profession as it struggles with these issues. Their efforts are 

further complicated by the need for these quality measures to take into account 

individual practice as well as organizational practices, management processes as well 

as clinical processes, and closed practice settings, such as staff model HMOs, as well 

as more open arrangements. 


Developing this framework will require leadership from both the public and private 

sectors, especially the profession of pharmacy itself which has responsibility as a 

profession to ensure that the payers and the public receive quality pharmacy care. 

The HCFA, as the single, largest payer for health care in the country; the FDA, with 

its responsibilities for drug product information and dissemination; and HRSA, which 

has long-standing interest in the health professions, can encourage and support the 

efforts of the pharmacy organizations. It is important for this process to engage other 

payers, professional medical organizations, private accreditation organizations, 

consumer groups, and the managed care industry. All have important perspectives to 

contribute. All these parties have responsibility to ensure that pharmacy programs 

rest on foundations    th;:t are clir:icall jr sound,   v~idelv_I accepted,   and promote   imrrowd 

patient care. 




                                                    17 

           COMMENTS               ON     THE      DRAFT          REPORT


We received comments on the draft report from the Health Care Financing
Administration (HCFA), the Food and Drug Administration (FDA), and the Health
Resources and Services Administration (HRSA). We also solicited and received
comments from the Academy of Managed Care Pharmacy (AMCP), the American
Medical Association (AMA), the American Pharmaceutical Association (APHA), the
American Society of Health Systems Pharmacists (ASHP), the Consumer Coalition for
Quality Health Care, and HCFA’ s Medicaid Pharmacy Technical Advisory Group
(P-TAG). We include the complete text of the detailed comments in appendix D.
Below we summarize the major comments and, in italics, offer our responses. We
made a few minor edits in the report in response to the comments.

HCFA, FDA, HRSA Comments

All three agencies concurred with our recommendations.

The first recommendation, addressed to HCFA., called for steps to strengthen the
accountability of Medicare HMOs for the quality of services provided by PBMs to
beneficiaries. In its concurrence, HCFA identified current requirements for its
contracts with HMOs and summarized its current approaches for monitoring their
performance.

In our view, this response does not substantively address a central concern raised in this
report about HCFA ’ s minimal oversight of its HMOs ’ pharmacy programs and their
subcontracts with PBMs. Although HCFA concurs with the recommendation, its
comments suggest that it sees no need to strengthen either its requirements of Medicare
HMOs for their pharmacy programs and their use of PBMs or its approaches to
monitoring these programs. Yet, we believe our jindings warrant more attention by
HCFA. We have suggested several steps HCFA could take that are within its current
regulatory responsibilities. As we point out, the HMO contract, for example, could be an
important vehicle for strengthening Medicare HMOs ’ accountability for their pharmacy
programs. We suggest that HCFA consider taking additional steps to address these
concerns that bear directly on quality of care.

The second recommendation urges that State Medicaid agencies, too, should
strengthen the accountability of their Medicaid HMOs for the quality of PBM services
to beneficiaries. The HCFA concurs with this recommendation.

We are pleased that HCFA concurs with this recommendation and urge that it work in
consultation with the State Medicaid agencies, which have primary responsibility for the
contracts with Medicaid HMOs.

The third recommendation, which calls for HCFA, FDA, and HRSA, to work with
external organizations on developing quality measures for pharmacy practice in


                                             18
managed care settings, was favorably received by all three agencies.

We encourage the agencies to meet together and to identifi one among them to assume
lead responsibility, so that enhanced communication and coordination may facilitate
continued progress in defining these measures. We agree with the comment of HCFA ’ s
P-TAG that States be involved with thfi effort.

The HCFA and HRSA each offered technical comments on the report. In response to
HCFA ’ s comments, we updated the Medicaid managed care statistic to reflect enrollment
as of June 1996. We did not, however, recast the statistics we present in our dticussion of
the HMOs ’ approaches for overseeing their PBMs ’ performance. We believe our
presentation is valid and correctly emphasizes the point we make about the degree to
which HMOs rely on independent assessments of various kinds. We also chose not to
elaborate on the nature of quality measures for pharmacy practice as HMA suggested; we
think such definition is more appropn’ately considered as part of the larger task to be
accomplished under this recommendation.

External Organizations’   Comments

All the outside organizations concurred with our recommendations. Most offer
elaboration of points made in our report or related to them. Some call for revisions
to the report or other actions on our part.

For the most part, we have not revised the report in response to these comments, which,
we believe, call for changes beyond the scope of this inquiry. We are pleased that the
comments of the AMA, ASHP, APIA, and the Consumer Coalition support many of the
points made in the report or elaborate on related issues. We appreciate the comments of
AMCP but find many of the points raked are beyond the scope and purpose of our
inquiry. Our focus on those HMOs contracting with PBMs is important to the
Department and to other payers of managed health care services. Our jindings, and the
recommendations that spring from them, reflect in large measure the perspectives and
insights from this increasingly.significant group of health care providers.




                                             19 

                                APPENDIX            A


                                  METHODOLOGY

We relied on four primary sources of information for this report: (1) responses to a
mail survey of all HMOs in the country; (2) telephone discussions with HCFA staff in
headquarters and 6 regional offices and with Medicaid officials from 9 States;
(3) discussions with experts and analysts on managed care, pharmacy and
pharmaceutical care, and pharmacy benefit management; and (4) a literature review
including journals and newsletters, reports and analyses, government documents,
documents from professional and trade organizations. Below, we provide a detailed
description of each source.

(1) MAIL SURVEY OF HMOS

Universeof HMOs

We relied initially on the listing of HMOs contained in the GhYA/AMCl?A Managed
Health Care Directory, 199.596, which contained   data on 639 HMOs across the country.
These HMOs included the affiliated sites of 24 national and regional managed health
care organizations as well as HMOs that were not affiliated with these national and
regional organizations.

We telephoned each of the national and regional managed health care organizations
listed in this directory to (1) determine whether decisions about the organizations’ use
of PBMs are made centrally and apply to all affiliated sites or whether these decisions
are delegated to the affiliated sites, (2) confirm the number of HMO sites affiliated
with each organization, and (3) identify the key decisionmakers.

Thus we refined the initial AMCRA listing of HMOs and ultimately defined a universe
of 368 HMO decisionmakers to whom we sent our surveys. When we refer to
“HMOs” in our report, we are speaking about these HMO decisionmakers, either the
chief executive or the head of pharmacy services responsible for decisions about PBMs
for their HMOs. Our universe included 26 HMO decisionmakers from national or
regional managed care organizations who represent their organizations’ 283 affiliated
local plans. The remaining 342 HMO decisionmakers each represent local HMO
plans unaffiliated with any national or regional managed care organizations. These
368 HMO decisionmakers represented 625 local plans nationwide.

szmey l+ocess

All HMO decisionmakers received the same survey questionnaire.     We mailed the
survey first in juic 1996; kit Iliai!Cd Li fUliOV:-Up SUI7C4’ id         i:: JUI2’
                                                            ~L~~IC.S~lUil~~iit?;



1996. Overall, 263 of 368 HMO decisionmakers (whom we refer to as “HMOs” in this
report) responded to our survey. This is a response rate of 71 percent.


                                          A-l
Database construction

We grouped the HMOs listed in AMCRA’s directory into 5 categories based on
whether or not they are affiliated with national/regional organizations and whether or
not decisionmaking is centralized (see Figure A). Thus, we collapsed AMCRA’s data
for HMOs into 368 records, each representing one HMO decisionmaker.

For the three types of HMOs (plan fypes #I, #2, and #4b) in which decisions to use a
PBM are made at the local level, each HMO decisionmaker was counted as one
record in the database. For the two types of HMOs (plan types #3 and #4a) in which
the decision to use a PBM is made at the corporate level, we collapsed all data for
affiliated plans into one record for each HMO decisionmaker.

In categorizing the HMOs, we relied on information from our telephone calls and on
written comments from survey respondents.    If we learned from a respondent that an
independent plan had merged with a regional or national HMO, or that it was no
longer in existence, we changed our database accordingly.   We did not change
AMCRA’s data in any other way.

                                                         FIGURE        A
                                                TYPOLOGY          OF HhdoS


                                                                             Numberof    HMOs       NUlUbh7OfAfT6WCd
                                                                             sum)nd                 Plans Refncamted
                               QpCOfHMO

 PfantypeXl                                                                             238                238
 Independent HMO. Decisions about using a PBM are made at the local
 level for each affiliated plan. One sutwy is sent to each local plan.

 Planlypc#2                                                                             95                  95
 National or regional HMO. Decisions about using a PBM are. made at
 the local level for each affhiited plan. One survey is sent to each local
 plan.

 -typcfl                                                                                18                  227
 National or regional HMO. Decisions about using a PBM are made at
 the corporate level for all affiliited plans. One survey is sent to
 headquarters representing all affhiated plans.

 Phlltypc#43                                                                             8                  56
 Hybrid model. Decisions about using a PBM ate made at the corporate
 level for affiliated plans. One survey is sent to headquarters for these
 affiliated plans.

  Pfan type X4b                                                                          9                   9
  Hybrid model. Decisions about using a PBM are made at the local level                         ~
  for affiliated plans. One survey is sent to each local plan.

  Totals:                                                                               368     I           625




                                                              A-2 

Figure B illustrates the number of HMOs responding to the OIG survey, and whether
or not they use an external PBM. The chart presents the number of local plans
represented by these local and national HMOs.

                                                   FIGURE         B
                            RESPONSES         FROM   H&lo         DECISIONMAKERS




  Number of HMOs surveyed                            342 HMOs             26 HMOs       368 HMOs
                                                     (342 plans)          (283 plans)   (625 plans)

           Number of HMOs responding to survey       241 HMOs             22 HMOs       263 HMOs
                                                     (241 plans)          (254 plans)   (495 plans)

             Number of HMOs responding to survey     185 HMOs             14 HMOs       199 HMOs
  that use an external PBM                           (185 plans)          (118 plans)   (303 plans)

            Number of HMOs responding to survey      56 HMOs              8 HMOs        64 HMOs
  that do not use an external PBM                    (56 plans)           (136 plans)   (192 plans)

           Number of HMOs not responding to          101 HMOs             4 HMOs        105 HMOs
  survey                                             (101 plans)          (29 plans)    (130 plans)




Use of AAUCIZAdata in OIG analysk

Although the OIG survey results served as the foundation for this report, we used
AMCRA data for three of our analyses: 1) analysis of the nonrespondents, 2) analysis
of the tax status of an HMO, and 3) analysis of the number of lives covered by an
                                                       .
HMO.

In assigning a tax code to an HMO, we reviewed the tax status for all of its affiliated
plans. If all the affiliated plans reported a for-profit tax status, we called the tax status
of that HMO “for-profit;” if all the affiliated plans reported a non-profit tax status, we
called the tax status of that HMO “non-profit”; and if some of the affiliated plans
reported for-profit tax status and others reported non-profit tax status, we called the
tax status of that HMO “mixed.” For the sake of clarity, we chose to eliminate from
any analyses involving tax status the eight HMOs that we designated as having a
“mixed” tax status. To determine the number of covered lives for each HMO, we
summed the total number of covered lives for all of the HMO’s affiliated plans.



The information    drawn from the AMCRA database and from the OIG mail smvey is
self-reported  by the HMC)s. We did not veri@ this information. Ike A.klCKA data
are based on that organization’s           survey of HMOs which had a 76.8 percent response
rate.


                                                     A-3 

(2) TELEPHONE INTERVIEWS WITH MEDICARE AND MEDICAID
    0FFIcIALs

We spoke with HCFA staff in Baltimore for both the Medicare and Medicaid
managed care programs. We contacted Regional Medicare HMO staff in Boston
(Region I), Atlanta (Region IV), Chicago (Region V), Dallas (Region VI), Denver
(Region VIII), and San Francisco (Region IX). These Regions include those with the
largest numbers of Medicare HMOs.

We also spoke with Medicaid officials in 9 States: Arizona, California, Florida,
Massachusetts, Minnesota, Missouri, New York, Ohio, and Rhode Island. These
States are among those most experienced with enrolling beneficiaries in Medicaid
HMOs. These States, too, include pharmacy services in their HMOs’ contracts.


(3) DISCUSSIONS W-I’THEXPERTS AND ANALYSTS

During the course of this inquiry, we had discussions with many experts and industry
analysts about PBMs and the issues associated with their use. We spoke with
representatives from PBMs, from health benefits consulting firms and large employer
groups, from professional pharmacy and medical organizations, with organizations
representing the managed care industry, with several national, private accreditation
groups, and with Federal government agencies such as the General Accounting Office
and the Federal Trade Commission.

(4) DOCUMENT AND LITERATURE REVIEW

Among the written materials we have reviewed are government and non-government
studies on quality assurance systems and on pharmacy, managed care pharmacy, and
pharmacy benefit management companies; position papers and guidelines from
professional pharmacy and medical organizations; national accreditation standards;
court cases and legal settlements; newsletters, newspapers, and professional journals.




                                         A-4 

                                 APPENDIX            B


                            NONRESPONDENT         ANALYSIS


An important consideration with research based on surveys of the type we have 

conducted is the bias that may be introduced into the results if the nonrespondents 

differ from survey respondents in systematic ways. To test for the presence of bias, we 

relied on the following sources of data: information contained in the GHAAIAMCRA 

Managed Health Care Directory, 1995-96 and an OIG typology of HMO 

decisionmakers. 


In collapsing the data from AMCRA’s directory for the nonrespondent analysis, we 

concluded that an HMO served Medicare beneficiaries if at least one of its affiliated 

plans served them. We followed a similar process for determining an HMO’s 

Medicaid status. For this analysis we relied on data reported by the HMOs to 

AMCRA. 


The Chi-square     statistic was used to test differences between respondents and 

nonrespondents     by 1) tax status of an HMO; 2) number of lives covered by the 

HMOs; 3) type      of HMO according to the OIG typology; 4) whether or not an HMO 

serves Medicare     beneficiaries; and 5) whether or not an HMO serves Medicaid 

beneficiaries. 


We determined that the HMO decisionmakers responding to our survey did not differ 

significantly from those not responding in terms of the following four variables: the 

number of lives covered by the HMOs, the type of HMO according to our typology, 

whether or not the HMO decisionmaker serves Medicare beneficiaries, and whether 

or not the HMO decisionmaker serves Medicaid beneficiaries. 


However, when we tested for a relationship between the response of an HMO 

decisionmaker and the HMO’s tax status, we found that the chi-square statistic was 

significant (6.453) at the .Ol level. When one finds that there is a statistically 

significant relationship between the response rate and a key variable, it is important to 

determine the extent of the impact of the nonresponse bias on the entire survey. We 

estimated the nonresponse bias for our key question “DO you contract with an external 

PBM?” and found that taking into account the tax status of nonrespondents changed 

the answer by less than one percentage point. Because the impact was not significant, 

it was not necessary to our adjust other analyses to reflect the nonresponse bias. 





                                          B-l
                                             CHI-SQUARE FOR TYPE OF TAX STATUS



II                         I
                                  Respondents
                                                        I
                                                            Nonrespondents
                                                                                I
                                                                                       Total
                                                                                                      I
                                                                                                           % Respond
                                                                                                                           II

IIProfit

  Non-Profit
                           I       148 (56.9%)

                                   112 (43.1%)
                                                        I
                                                              42 (42.0%)

                                                              58 (58.0%)
                                                                                I
                                                                                       190

                                                                                        170
                                                                                                      I
                                                                                                             77.9%

                                                                                                             65.9%
                                                                                                                           II


  Overall                              260                       100                  360’.                  72.2%


CHI-SQ.=6.453*      DF=l

*=This was significant at the .Ol level.

�*=Eight HMOs were eliminated because they either did not respond to the question about tax status in AMCRA’s survey, or
they responded but showed a “mixed tax status” when we collapsed AMCRA’s records.




                                                    CHI-SQUARE FOR SIZE OF HMO


                                       Respondents             Nonrespondents           Total             % Respond

  0 - 49,999                           127 (52.0%)               52 (55.9%)              179                 70.9%

  50,ooo - 99,999                          47 (19.3%)            16 (17.2%)              63                  74.6%

  100,ooo - 799,999                        58 (23.8%)            22 (23.7%)              80                  72.5%

  SOO,OOO+                                 12 (4.9%)              3 (3.2%)               15                  4.9%

  Overall                                     244                       93             337:”                 72.4%


CHI-SQ.=0.775       DF=3

�**=Thittyone HMOS were eliminated because they did not respond to the question about covered lives in �������
                                                                                                            SUXVITJ’.




                       CHI-SQUARE FOR TYPE OF CONTROL (NATIONAL VS. LOCAL CONTROL)


                                  Respondents               Nonrespondents             Total               % Respond

  LQcal                            241 (91.6%)                101 (96.2%)              342                    70.5%

  National/ Regional                22 (8.4%)                  4 (3.8%)                 26                    84.6%

  Overall                              263                        105                   368                   71.5%


CHI-SQ.=2.372       DF=l




                                                              B-2 

                        CHI-SQUARE FOR WHETHER HMO SERVES MEDICARE


                        Respondents      Nonrespondents       Total   % Respond

  Do not serve          190 (72.2%)        80 (76.2%)          270      70.4%
  MedGre

  Serve Medicare        73 (27.8%)         25 (23.8%)          98       74.5%

  Overall                   263               105              368      71.5%


CHI-SQ.=0.598    DF=l




                        CHI-SQUARE FOR WHETHER HMO SERVES MEDICAID


                        Respondents      Nonrespondents       Total   % Respond

  Medicaid
  Do Not Serve          201 (76.4%)        80 (76.2%)          281      71.5%


  Serve Medicaid        62 (23.6%)         25 (23.8%)          87       71.3%

  Overall                   263               105              368      71.5%


CHI-SQ.=0.002    DF=I




                                           B-3 

                              APPENDIX           C




         SUMMARY OF HMOS’ RESPONSES TO OIG MAIL SURVEY


All data presented in this appendix are derived from an OIG mail survey of HMOs
conducted in June 1996.




                                       C-l
l.DOCSyWrHMO         currently contract with an atemal PBM to hdp manage pharmacy baxfits for any of your HMO’s cnmkcs?




                 199 (75.7%)                                                                               263




                           Those HMOs tit   responded “Yes” to question 1 aLro answered questions 2-13.

                           Those HMOs that responded “No” to quesdon I also answer questions 14-16.




2 What was the enwllment of your HMO in June, 19%?




       180,918                 70,000              377,708                      350             395.3400             189




 a. Serve Medicare beneficiaries?                                  107 (53.8%)           89 (44.7%)              3 (1.5%)   199

 b. Sem Medicaid beneficiaries?                                    111 (55.8%)           87 (43.7%)              1 (0.5%)   199

 c. Serve commercial enrollees?                                    191 (%.O%)             7 (3.5%)               1 (0.5%)   199

 d. Use a PBM contract for Mcdicuc          beneficiaries?         89 (44.7%)            106 (53.3%)             4 @W       199

 e. Use a PBM contract for Medicaid         beneficiaries?         96 (48.2%)            103 (51.8%)                _-      199

 f. Use a PBM contract for commercial       enrollees?             190 (95.5%)            8 (4.0%)               1 (0.5%)   199




                                                             c-2
5. Which PBM(s) has a contrad with your HMO for 19967




6. Has your HMO changed PBMs since 1993?


.‘..‘......2... :..:::.:.:.:.:.:.:::::::.:::::.:::::.:.:.:.:.:.
                                                         ..:.:.:
                                                               ......:.:,:.:.:,:.:.:
                                                                             ;.:,:: ::::::.:.j:::::.:.:.:.:.:.:.:.:.~:.:      .‘.‘.‘.‘.‘.  .‘.“.‘.‘.         .:.:: ._: _. :.:.:.:.:.:.:.:.....:
                                                                                                                                                           :.‘.~.‘.‘.‘.‘.‘...‘.:‘.‘.‘,‘:‘.‘.~....:.:.:.:.:.:.:.:                ..
                                                                                                                                                                                                                 ...................:.:::.::~:.~:.;::::~:.:,:.~.;.:.:~:;::::i:i::~:
.:.:.:.:...........
“‘.~.‘.‘.:.:.‘.:.‘.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:,~:,.,:~.‘.‘,         _. ._. _. ___. _ ... i.:.:.:.:.:.:.:.:.:.:.:.:.:
                     ,. ..__. _. __. ...................(...........~...,.~,,.,.~.~.~.,.~,,.,.~.,.~.,.,.,.,.                .                       .... -::::::::::.:.:.:.:.:.:.:.::::‘::::::::
                                                                                                                           .............................                                  :“.:.:.
                                                                                                                                                                                                                 ~~~~~~~~~~~
~~~~~:ia~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~                                                                        ~~~~~~~:i:~~~~~~~~~~~~~~~~~~~~
..........i,.,.....,.,
                    ......,.....                           .                           ..                .            .
                             ...........................................................................................~:..i..                        ... ... .......\..........
                                                                                                                                                                           ‘.....,.‘,.....,~,~,~,~,~.~..,~.~,~,~~~~~,~,~,~,~
                                                                                                                                                                                                                  ,.,...,.,              ..               .
                                                                                                                                                                                                                           ................................:.:.:.:.:.:.:.:.:.:...:.:.:.:.:.:.:.:.:.:.:.:.:

                                  29 (43.3%)                                                                                   38 (56.7%)                                                                                          __                                                                        67;


 =
�      Those HMOs which reported contracting with a PBM for four years or less were eliminated.
8.lsthissavice mix signUicanUydifferent
                                      from 23 years ago?




           40(2&O%)                   101 (70.6%)


 =
�    Those HMOs which reported contracting with a PBM for two years or less were eliminated.

9.LhyouthinkyourHMOwiUchangethe               current sexvice mix over the next ample                                                      of years?


                                                                         ::j::j::j::::::::::::::j:::::::::::::::::::::::::~::~::::::::                        :::::.: ::y::   :::::     ._.                . .. . . . . . . . . /. .L........   . . . . . . . . . .._..../..I............................   i.......   .L..
                                                                         ,~~~,y,.,.~.,.,.“.‘,.,.,.,.,.,.,.,.,.,.,.~.,.,.,,,.,.,.,.~.,,,.,,,,,,,.,.~.,.,.,.,                           ::::::::::::::.:::::::::::::::::::::::::::::i:::

                                                                         alx~~~~iiiij~~~~~~                                                                                           ~~~~~~~~~~~~




                                                                                    23 (11.6%)                                                                                                                                                            199




  a. Information re rts           60 (33.7%)       84 (47.2%)        26 (14.6%)                                            4 (2.2%)                                                                                                                                                                                           178
  submitted by the r BM                                          I                                               I

  b. Anal es by your HMO          70(39.3%)        72(40.4%)         23 (129%)                                             3 (1.7%)                                                                                                                                                                                           178
  of data Tram the PBM                                           I                                               I

  c. Reviews of PBM               6 (3.4%)         10 (5.6%)     1 24(13.5%)                                     1 12(6.7%)                                                                                                                                                                                                   178
  performance by outside
  consultants

  d. On-site monitoring           14 (7.9%)
  gLsocanducted by your


  Peer reviews of PBM                                                                                                                                                                                                     --                                                                       --
  programs by your HMO’s
  physicians or pharmacists

  f. Using your HMO’s             50(28.6%)                                                                                                                                                    42(24.0%)                                                                       6 (3.4%)                                       175
  Pharmaq and
  Therapeutics Committee                                                                                                                                                               +
                                  30 (17.4%)       46(26.7%)    1 16(9.3%)                                      1 7 (4.1%)                                                                                                                                                                                                    172



  Direct feedback about
  PBM programs from:

  h. Your HMO’s
  physicians
                                  48 (27.3%)      39(222%)           44 (2!i.O%)                                          3 (1.7%)                                                                                                                                                                                            176


  i. Your HMO’s                   43p4.42)        50(28.4%)     1 X(14.8%)                                      1 8(4.5%)                                                                                                                                                                                                     176
  JdXUUlWiStS


  j. Your HMO’s enrollees         54(30.7%)       43 (24.4%)    1 31(17.6%)                                     1 8 (4.5%)                                                                                                                                                                                                    176



  k. Reviews of your PBM’s        33 (19.0%)      42 (24.1%)         20 (11.5%)                                           5 (2.9%)                                                             64(36.8%)                                                                       10
  performance through                                                                                                                                                                                                                                                          (5.7%)
  established performance
  I..


* = Those HMOs which report contracting with a PBM for less than one year and/or report using a PBM for only claims
processing were eliminated.




                                                                c-4
a. Using PBMs may help contain prescription         70              88 (44.4%)
drug costs.                                         (35.4%)
b. Using PBMs may help contain overall              27              80(41.0%)
health care costs.                                  (13.8%)


c. Using PBMs may help improve physicians’
prescribmg practices.
                                                    32
                                                    (16.2%)
                                                                    97 (49.0%)    54(27.3%)                              9 (4.5%)
                                                                                                                                     I      6 (3.0%)
                                                                                                                                                                                I         198


d. 	 Using PBMs may help improve the                23              74(37.6%)     69 (35.0%)
 pharmaceutical care provided by phannacists.       (11.7%)
e. Using PBMs may help improve enrollees’           12 (6.1%)       81 (41.3%)    70 (35.7%)
compliance with their drug therapies.

Improve a-        to   pbarmaca~ticaiisemica
f. PBMs may help improve access to                  46              64(32.8%)     45 (23.1%)                                 25                                                             195
pharmaceutical setvices for HMO enrollees.          (23.6%)                                                               (12.8%)               (7.;5%)




                                                                                 .A.,.........i _....
                                                                                                   ..:.:.:.:.:.:.:.:.                A.... ...............l....... ...._.....       .:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:::::::::
                                                                                                                                                                                                                                                 E
                                                                                                                                                                                                                                                 ....i...........
                                                                                                                                    i. ......A .i.. .A.. a.. .......A.....                                                                       :::::::::::::::::
                                                                                 ~;                                                 l~~~~~~                                         ~~~~



                                                                                                                                    i.. ..........A .../ A.. ..........A.
                                                                                                                                                                                                                                                 :@j#
                                                                                 @$@#g&>                                            .A. ......................................
                                                                                                                                    :~:~:~:::~:~:~:::~:~:::::~:~:~:::::::~:~g~~
                                                                                                                                    ........ ..............n.................
                                                                                                                                                                                                                                                 ::::::::::::::s
                                                                                 g$..~;~                                                              .,.,Y,.,.,...,.,.,.,.,.
                                                                                                                                    ::::::::.:.:.:.:.>..,:.~:.~ .~.~.~.:,~.~                                                                     :::::::::::$y:
                                                                                                                                     ..A.. n..........                         . . . ,...A              . . . . . . . _......   i.....   A....   g$&


a. 	Potential fur bias.
                    PBMs’ alliincea with drug                                                                           61           20                                                 8 (4.0%)                                                  199 

manufacturers may influence decisions about drug products in        ;;9.6%)       $5.656)                               (30.7%)       (10.1%) 

ways that compromise optimal drug therapy. 


b. Fmgm&ation    of aavia~     Using PBMs may contribute to         10 (5.1%)     23                                    58           101                                                6 (3.0)%)                                                 198 

fragmentation of patients’ health care.                                           (11.6%)                               (29.3%)      (51.0%) 


cIhitedpeureview.       Users of PBMs ma not exercise               11 (5.6%)                                           66           49                                                                                                           198 

sufficient independent peer review of the P8 h4.s’clinical                        &%)                                   (33.3%)      (24.7%)                                            ;:a%) 

decisions. 


dInd4qnate         -psuduct fufosmatiou. HMO9 physicians            6 (3.1%)      22                                    69                                                              24                                                        1% 

and pattents m%ase drub theraT decisions on product-                              (11.2%)                               (35.2%)      g&3%)                                              (12.2%) 

spectfic mformation from BMs w ich, unlike drug 

manufacturers, need not comply with the Federal 

requirements for drug labeling and advertising. 


ewegadbgtheamfidentiautyofpatientdata.                              20                                                  55           89                                                 9 (4.5%)                                                  199 

Confidential, patient-identifiable mfonuation contained in          (10.1%)       ?3.1%)                                (27.6%)      (44.7%)
PBM databases may be disclosed to others, such as employers
or drug manufacturers, without the fully informed consent of
patients.

t Diadoaur~ HMOs may not inform enrollees about using a             16 (8.0%)                                                                                                                                                                     199
PBM and its alliances with drug manufacturer(s).                                  fl5.68)                               $S.l%)!:3.2%)                                                   go%)
   PBM accouutability. The information HMOs receive from            20            43                                    71           57                                                 7 (3.5%)                                                  198
k BMs may be too limited for HMOs to hold them sufficiently         (10.1%)       (21.7%)                               (35.9%)      (28.8%)
accountable for their performance.
                                                                -




                                                              c-5
Contracting with a different PBM 
                                                         89 (44.7%)                 199

Sharing with PBM of increased financial risk 
                                             81 (40.7%)                 199

Managing drug benefit intemallv 
                                                          53 (26.6%)                 199

Other changes 
                                                                            23 (11.6%)                 199




                        emons 14-16 were asked oniy of those 64 HMOs 
 thaf responded “No” IO question I,
                               Le., HMOs that do not current& contract 
 with an memal PBM.




         14 (22.2%)                       39 (61.9%) 
                    10 (15.9%)                        63




               30 (49.2%)                         30 (49.2%)         I
         1 (1.6%)           I             61




                                                           C-6
                              APPENDIX            D




                     COMMENTS      ON THE DRAFT REPORT


In this appendix, we present in full the comments from the Health Care Financing
Administration, the Food and Drug Administration, and the Health Resources and
Services Administration.  We also solicited and received comments from the Academy
of Managed Care Pharmacy, the American Medical Association, the American
Pharmaceutical Association, the American Society of Health Systems Pharmacists, the
Consumer Coalition for Quality Health Care, and the Medicaid Pharmacy Technical
Advisory Group of the Health Care Financing Administration.




                                        D-l
        DEPARTMENT      OF HEALTH   ck HU.MhS   SER\.ICEj



                                                                     The Admlnlstra!::
                                                                     Washmgton. 0 C      22251




DATE:           MARI I 1997

FROM: 	        Bruce C. Vladeck
               Administrator

SUBJECT: 	 Office of Inspector General (OIG) Draft Report: “Experiences of Health
           Maintenance Organizations with Pharmacy Benefit Management
           Companies” (OEI-0 l-95-00 110)

TO: 	          June Gibbs Brown
               Inspector General

We reviewed the above-referenced report pertaining to the use of pharmacy benefit
management companies by health maintenance organizations. Our detailed comments on
the report ticommendations are attached. Thank you for the opportunityto review and
comment on this report.

Attachment
                     . .,     ,,     .a*                                : .-.
                                                                           .
                Health Care Financinp Administration (HCFAI Comments on 

           Ofice of InsDectorGeneral (OIGI Draft ReDort:“Exneriences of Health 

      Maintenance Orpanizations (HMOs) with PhaxmacvBenefit Management Comnanies 

                                /PBMsY* tOEI- I-95-00 110) 


    OIG Recommendation

    HCFA should take steps to ensure that its Medicare HMOs are sufficiently
    accountable for the quality of the services their PBMs provide to beneficiaries.
                                                                 .

    HCFA Resnonse             .

    We concur. HCFA conducted an assessment of the PBM industry and its impact on costs
    and quality of care on Medicaid and Medicare services, as well as on the larger
2   phaxmaceutic+ market.’ The PBM industry has experienced considerable growth, both in
    terms of number of firms and number of people for whom the PBMs provide services. As
    a beneficiary-centered purchaser of health services, HCFA is entirely focused on
    achieving the optimal value for our beneficiaries in terms of cost and quality. However,
    HCFA is limited in its regulatory oversi@t and evaluation of pharmacy in Medicaid and
    Medicare managed care programs. Under Medicare, HCFA currently requires contracting
    HMOs to include specific provisions in their contracts with subcontractors that detail a
    listing of services covered for Medicare enrollees, a description of payment or incentive
    arrangements, an agreement not to bill Medicare members except for applicable copays,
    deductibIes or coinsurance, and an agreement to participate in HMO quality assurance
    and utilization review activities. These provisions apply to all subcontracting
    relationships, including PBMs. HCFA monitors HMOs on a periodic basis during which
    random samples of all subcontracts are reviewed to ensure compliance. HCFA can
    encourage states to strengthen their contractual arrangements to ensure that oversight
    mechanisms are in place. HCFA will also continue to monitor managed care
    organizations’ oversight of PBMs’ performance as well as ensure that subcontracting
                                                                         .
    relationships meet HCFA’s contracting requirements.

    OIG Recommendation

    State Medicaid agencies should take steps to ensure that their Medicaid HMOs are
    sufiiciently accountable for the quality of the services their PBMs provide to
    beneficiaries,
    Page 2




    We concur. Given HCFA’s regulatory limitations for oversight of pharmacy in Medicaid
    and Medicare managed care programs, we believe the best way to address this issue is to
    develop guidelines that would provide states with technical assistance in developing their
    contractual language and performance standards for the subcontractor relationship
    between HMOs and PBMs.



    HCFA, the Food and Drug Administration, and the Health Resources and Services
    Administration, working together with external organizations, should build on
    existing efforts to develop quality measures for pharmacy practice that can be used in
r   managed care settings.



    We concur. This is an excellent opportunity for these Federal agencies to work together
    to improve the management of the drug benefit to beneficiaries through developing
    quality measures as well as monitoring the quality of service delivered to ensure feedback
    of results. In this regard, HCFA can ensure performance measures for’pharmacy services
    are included in its strategy for quality assurance for HMOs. Further, the group can also
    identify incentives that ensure measurable improvements in outcomes of patient care,
    ensure increased accountability, and achieve higher beneficiary satisfaction.



    Page 1 - Medicaid managed care enrollment statistic of 24 percent is outdated. The
    more recent number would be 39 percent as of June 30, 1996.

    Page 13 - You state that “24 percent of HMOs do not use their own Phaxmacy
    Therapeutic Committees to peer review their PBMs’ programs.” It also holds that
    76 percent do conduct this type of activity. In your report, you indicate that 38 percent
    do not perform their own drug use reviews of PBICfs’analyses, but this indicates that
    62 percent do conduct this type of analysis. Further, you cite that 5 1 percent do not
    conduct on site review. This means that 49 percent do conduct on site reviews. These
    statistics could be cited based on order of maptude so as to avoid negative overcast.
       DEF’ARTMENT      OF HEALTH   & HUMAN   SEAVICES~   Public Heawl scnke

      Food End OrliP 4dministrath


                                                          Memorandum



t+em DeputyCommissionerfor b%&nttgm and!3ptcms, FDA
      DEPARTMENT OF HEALTH &aHUMAN SERVICES                             Public Health Service



                                                                        Health Resources and
                                                                         Services Administration
                                                                        Rockville MD 20857




  JAN 3 0 1997

      .



TO:          Inspector General

FROM:        Acting Deputy Administrator

SUBJECT:     Office of Inspector General (OIG) Draft Report -
             “Experiences of Health Maintenance Organizations with Pharmacy.Benefit
              Management Companies” - OEI-01-95-00110

Attached, in accordance with your December 12, 1996 request, are HRSA’s comments on the
subject draft report.




                                   Thomas G. Morford

Attachment
          HEALTH RESOURCES AND SERVICES ADMINISTRATION 

                            COMMENTS ON 

                 OFFICE OF INSPECTOR GENERAL (OIG) 

         EXPERIENCES OF HEALTH MAINTENANCE ORGANIZATIONS 

            WITH PHARMACY BENEFIT MANAGEMENT COMPANIES 

                          OEI-01-95-00110 



GENERAL COMMENT 


The report provides a description of pharmacy benefit management
companies (PBMs), and the services they provide to payers and
health plans. The main use of PBMs is in controlling costs of 

prescription drugs. While costs should be an important 

consideration, costs should not be the only factor considered in 

the decision making process.   Also the report points out the lack 

Of sufficient accountability for the quality of services provided 

to beneficiaries.  Various publications have documented drug 

misadventuring and the associated cost to the health care system, 

as well as pharmacists filling prescriptions that would produce a 

potentially harmful adverse reaction.   The Department recently 

launched a public-private plan designed to improve patient 

understanding of prescription drugs and reducing misuses of 

medications. 


OIG RECOMMENDATION 


HCFA, FDA and HRSA working together with external organizations, 

should build on existing efforts to develop quality measures for 

pharmacy practice that can be used in managed care settings. 

   A RESPONSE 


We concur.   HRSA has a variety of initiatives underway to
evaluate the role and effectiveness of managed   care in a reformed
health care  system insuring  access to quality health care
services.   This recommendation is a reasonable extension of these 

ongoing activities. 




Page iii., second paragraph.   Insert the following after 

81...improved patient care.81 Quality measures should reflect, as 

a minimum, consumer perception, clinical measure payout/revenue 

ratios and provider evaluations. 





                                                .
                                                    1650 King Street . Suite 402 1 rU..ak-i~, Virginia 22314
IANAGEDCAREPHARMACY~ 
                              (703) 683-8416 . l-SOO-TAP-AMCP A Fax: (703) 683-8417



esident
)hn Hopkins. R.Ph.
xky Mountain HMO
-and Junction, CO
70) 244-7775


mident-Elect
,well T. Stetier. R.Ph.. M.B.A.    January 3,1997
Xi Health Systems, Inc.
zottsdale. AZ
02) 314-8370
                                   June Gibbs Brown 

39 President 
                     Inspector General 

Ian Zimmerman. R.Ph.. M.B.A 
      Department of Health and Human Services 

xidolph. NJ 

01) 989-8721                       Office of Inspector General 

                                   Washington, DC 20201 

assurer
even G.Avey, MS.. R.Ph.
ospactlve Health, Inc.
                                   Dear Ms. Brown: 

NIc1y,UT
01) 943-4977
                                   The Academy of Manaked Cqre Pharmacy (AMCP) is pleased to have 

                                   the opportunity to offer comments on the Office of hispector General’s 

+wcior 

any Barenbaum. R.Ph. 
             (OIG) drafI report, OEI-01-95-00 110, entitled hkperience of HeaZfh 

tlmage 
                           Maintenance Organizations with Pharmacy Benefit Management 

heeling, IL 

47) 520-7823
                                   Companies. 


rector                             AMCP is the national professional society dedicated to the concept and 

qelo Giambrone. Pharm.D.           practice of pharmaceutical care in managed health care environments. 

liHealth
abank. CA                          AMCP’s mission is to promote the development and application of 

18) 238-6057                       pharmaceutical care in order to ensure appropriate health care outcomes 

                                   for all individuals. Its sole purpose is to represent the views and interests 

‘bctor 

m        M. Mednick. R.Ph. 

                                   of managed care phaxmacy. The Academy has more than 3,500 members 

lie Falls, NJ 
                    nationally who are part of more than 600 health care organizations, 

91) 890-0822
                                   including the leading health maintenance organizations (HMOs) and 

                                   pharmacy benefit management (PBMs) companies, that provide 

:ecutive Director
dith A. Cahill, C.E.B.S. 

                                   comprehensive pharmacy coverage to the millions of Americans served 

rdemy of Managed Care Pharmacy 
   by managed care. 

axandria. VA 

30) TAP-AMCP


?puty Executive Director
ginia S. Sweeter 

ademy of Managed Care Pharmacy 

axandria. VA 

00) TAP-AMCP
We commend the Inspector General’s Office for turning its attention to the role that PBMs play 

in the delivery of quality, cost-effective pharmaceutical care. We believe the draft report begins 

to explore the substantive interaction between PBMs and their HMO clients and agree, in 

general, with the three recommendations the report makes. However, we recognize that since the 

report is based primarily on responses to survey questions by HMO administrators, a full 

understanding of the relationships that exist between PBMs and their HMO clients may not have 

been possible to achieve. We offer our comments in the spirit of expanding on that 

understanding and clarifying some items that may be misinterpreted. 


1. There is general satisfaction with the level of performance HMOs receive from PBMs as
evidenced by the extent of use of PBMs by managed care organizations. PBMs have a level of
performance and quality that is attractive to HMO clients not only for their cost-savings
potential, but also for optimizing patient care through use of patient and provider profiling,
academic detailing, and automated advisories to prescribers and dispensers. Often PBMs offer
disease state management services to clients so that drug regimens produce the best patient
outcomes; this may entail greater, rather than reduced, outlays for prescription items, but with
cost savings ramifications for total patient expenditures by clients. PBMs offer expertise in the
management of the pharmacy benefit not always available within individual health care
organizations. These include a focus on pharmaceutical care tools such as monitoring for patient
drug compliance, drug interaction, allergies and identifying potential or actual drug related
problems. They also include the use of sophisticated, automated databases and information
systems.

2. In order to comprehend the entire operating environment within which PBMs function, it is
necessary to broaden the scope of inquiry for input. We believe that to achieve a true
understanding of the dynamics at work, the following parties need to have opportunity to explain
how they interact with PBMs:

PBMadministrutors: the report suffers from not having comments from people who work in
PBMs and who can be responsive first-hand to such issues as accountability, oversight,
safeguards, patient satisfaction, and value-added services demanded by HMO a&non-HMO
clients.

Empfoyer group purchasers: This prevalent sector of PBM clients helps shape how PBMs
operate. Employer purchasers recognize the buyers market they operate in regarding purchase of
PBM services. Fueled by competitive pressures, PBMs listen carefully to what this important
client base asks for in terms of both base-line cost considerations and provision of quality
services to their employees. Because employers are making purchasing decisions based on what
will be made available to their own personnel, they are very sensitive to performance/quality
concerns. Many of the innovations PBMs introduce into their operating procedures spring fi-om
requests made by employers who demand accountability in a number of different ways.
Pharmacies in the community under contract with PBMs: PBMs cannot operate without
extensive networks of participating retail pharmacies. These are the backbone of the delivery
mechanism. As they provide the means for the HMO to provide the pharmacy benefit to
enrollees, the interaction between the PBM and pharmacies under contract have a direct impact
on the relationship between PBMs and their HMO clients.

Individualproviders: PBMs, through use of their patient and provider profiles, are able to alert
physicians and pharmacists to potentially dangerous situations that would alter the prescriber’s
choice of drug. Providers’ views of PBM/HMO interactions could be enlightening.

3. Contrary to statements in the report, PBMs are held accountable by their clients. The keen
competitive marketplace that PBMs operate in demands that they be responsive to client
concerns. If PBMs cannot demonstrate quality performance, their clients go to their competitors.

Accountability, forced by competitive pressures, is further demanded by an array of external
entities. In the case of HMO clients, the PBM routinely must answer to HMQ representatives
responsible for the quality of care provided to enrolled populations. This may be the medical
director, the pharmacy director, or the quality assurance team. These individuals are responsible
for the health plan meeting quality standards set by such respected external accrediting bodies as
the National Committee for Quality Assurance or by state oversight agencies concerned about
both quality of care and financial solvency. Also; state Boards of Pharmacy have increased their
oversight of PBMs due to nonresident licensure statues in some states which cause all PBMs
with dispensing facilities to come under the scrutiny of multiple boards.
                                                    :
Both HMO and employer group clients are particularly sensitive to achieving both cost
efficiencies and patient satisfaction. Often such performance/quality accountability mechanisms
are spelled out in the contracts between PBMs and their clients. These accountability
mechanisms typically include:

- accessibility of pharmacies to the covered population 

- information systems capabilities and consistency 

- provision of clinical services such as formulary management assistance, alerts to prescribers of 

potential and actual drug-related problems, and drug .use evaluation 

- profiling of patient usage 

- profiling of prescriber patterns 

- provision of academic detailing to physicians to help them become acquainted with the 

capabilities and limitations of certain prescription products 

-jointly administered PBMIclient patient satisfaction surveys 

- client discounts through passing on of manufacturer rebates 

- negotiated standards for such performance factors as dispensing error rates, telephone 

answering speed, and dispensing turn-around times. 

In order to forestall costs associated with redundant performance/quality review, the Health Care
Financing Administration should look for ways to partner with existing approaches used by
PBMs and their clients to assure quality and performance for Medicare and Medicaid
beneficiaries.

 4. The report leads the reader to assume, incorrectly, that PBMs develop a forrnulary that clients
must operate under. This is not the case. Most established HMOs retain authority for formulary
decisions; the PBM provides advice in implementing the individual plan’s formulary. The plan’s
formulary is the product of intensive, ongoing work by a Pharmacy and Therapeutics (P&T)
Committee comprised of health care professionals involved in patient treatment. Changes to a
plan’s formulary are not discretionary and must be made only by the P&T Committee. It is the
responsibility of the PBM to manage the client-developed formulary.

Where the PBM’s client is an employer-based group, that client, in some cases, may not have the
ability or desire to provide its own P&T Committee and formulary program. In those situations,
it will utilize the PBM’s P&T Committee recommendations, and, adopt one of a variety of
formularies which the PBM may offer. To service this need, most PBMs regularly maintain a
P&T Committee composed of independent health care professionals to evaluate therapeutic
products for inclusion on the preferred list of drugs.

5. The report mistakenly suggests that PBMs retain most of the rebates paid by manufacturers;
this is not the case. Ordinarily the disposition of manufacturer rebates is decided by contract
negotiation between the PBM and the individual client. One of the nation’s largest PBMs with
the most experience with HMOs reports that 100% of the rebates are returned to the HMO,
unless they specifically agree to a different arrangement.

6. We believe the report should be explicit in stating that PBMs are not empowered to make
therapeutic substitutions to prescriptions without receiving authorization from the prescriber,
and, in some instances, from the patient.

7. The report cites confidentiality of patient data as one potential concern of,using PBMs, but
fails to note the benefits that result from the appropriate use of patient prescription and medical
data. As the report notes, PBM databases are richsources of information about which patients
are using which drugs. This information, used by physicians, pharmacists, and health plan and
PBM administrators, benefits patients by assuring proper drug selection. This is particularly
effective when the information is transferred electronically. Access to such data helps health
care professionals share practical information regarding how the prescribed drug may either
benefit or harm the patient because of potential drug interactions, similarity with other
prescription drugs the patient may already be taking, or compliance with drug therapy. This
information helps physicians and pharmacists make informeddecisions about whether or not a
particular medication is appropriate for a particular patient.
Managed care organizations and PBMs recognize and respect patient confidentiality as a
desirable and firmly-established principle. AMCP supports steps that health plans and PBMs
already take to protect patient privacy regarding their medical and prescription records, including
use of computer passwords and secure networks. AMCP believes managed care organizations
and PBMs must not release personally-identifiable data without the prior knowledge and consent
of the patient. (See enclosed position statement on electronic transfer of prescription
information.) Additionally, PBMs are subject to the laws of various states governing
confidentiality of patient information. As such, they are very conscious of their responsibility
with regard to protecting the confidentiality patient records.

8. Ownership of a PBM by a drug manufacturer is irrelevant to the question of whether quality
care is being provided. The report states that drug company ownership of a PBM may represent
a conflict of interest and raise concerns about anti-competitiveness. While we believe this is a
valid concem,.we believe safeguards already exist that prevent its happening. Regulatory
oversight by both state courts and the Federal Trade Commission have prompted strict adherence
to these safeguards so that PBMs and their owners operate independently. Additionally, the P&T
Committee composition and decision-making authority over formularies assures an independent
group of clinical experts controls the choice of preferred drugs. We recommend the report
reinforce the need for PBMs to have quality safeguards in place to avoid conflict of interest,
rather than suggest PBM ownership by drug companies is prima facia evidence of anti-
competitive actions.

9. The report’s bibliography would lead a reader to Some very negative pieces on managed&e. ’
AMCP would be pleased to suggest additions for the listing that would result in a more balanced
literature reference set.

In conclusion, we look forward to working with the Department of Health and Human Services
as it pursues its objectives of assuring that quality, responsible health care is made available to its
constituents. We would be pleased to meet with representatives of the agency to describe the
efforts AMCP’s Task Force on Quality Initiatives is developing-and explain the work of the
AMCP-led Quality Council comprised of representatives from all of the national pharmacy
associations.

Thank you again for the opportunity to offer our comments.

Sincerely,




Enclosure
AmericanMedicalAssociation
Physiciansdedicatedta the healthof America


JesseS.l&son,PhD           515 North Stab Street    3124644427
Principal
        Economist          Chicago, Ulinois 60610   312-464-5849 Fax
center for
I-hhh Policy Research


December 30, 1996 




June Gibbs Br0wn 

Wpector General 

Department of Health & Human Services 

Washington, DC 20201 


My Dear General: 


Your report, “Experiences of Health Maintenance Organizations with Pharmacy Benefit
Management Companies, 8’which you sent to John Seward, MD, Bxecutive Vice
President of the American Medical Association (AMA) for review and comment, was
referred to me for review.

The, report is indeed timely and examines a facet -- HMO contracti.ng with Pharmacy
benefit management companies (PBMs) -- 0f the managed care industry which.deserves
further scrutiny. The AMA shares the concern expressed by many of the HMOs about
the potential for bias nzsuhing from the PBM’s alliances with drug manufacturers.

The AMA has a clear position regarding potential conflicts of interest inherent in
managed care cost containment involving prescription drugs. Limits should be pIaced on
the extent to which managed care plans use incentives or pressures to lower prescription
drug costs.. Financial incentives and other approaches are permissible when they promote
cost-effectiveness, not when they require withholding medically necessary care. Managed
care plans must adhere to the requirement of informed consent that patients-be given full
disclosure of material information. This requires that managed care plans inform
potential subscribers of incentives or pressures to lower proscription drug costs.

Patients must be informed of the methods used by their managed care plans to limit
prescription drug costs such as the existence of formularies, the provisions for cases in
which the physician prescribes a drug that is not included in the formulary, and the
incentives or other mechanisms used to encourage physicians to cbnsider costs when
prescribing drugs. In addition plans should disclose any relationships with PBMs or
pharmaceutical companies that could influence availability of prescription drugs to
patients.
         Thank you for the opporttmity to review the report. We agree with your
         recommendations for the Medicare anti Medicaid ptograms and the practice of pharmacy.
         We encourage you to continue your scrutiny of this and other practices that could place
         the financial interests of health care providers above the welfare of their patients.




/-   ’   Jesse S. Hixson

         cc: Kirk B. Johnson, JD
 American            2215 Constitution Avenue, NW
 Pharmaceutical      Washington, DC 20037-2985                   The National Professional
 Association         (202) 628-4410   Fax (202) 783-2351         Society of Pharmacists



January 23, 1997 



The Honorable June Gibbs Brown 

Inspector General 

U.S. Department of Health & Human Services 

Room 5250 Cohen Building 

Washington, DC 20201 


Re: OEI-01-95-00110 


Dear Ms. Brown: 


On behalf of the American Pharmaceutical Association (APhA), the national professional
society of pharmacists, I would like to express my appreciation for this opportunity to
comment on the draft report, “Experience of Health Maintenance Organizations with
Pharmacy Benefit Management Companies. ”

 This report is a timely and concise examination of an important aspect of health care
 delivery: the management of prescription drug benefits by pharmacy benefits managers
 (PBMs). Your staff deserve credit for adopting the market-savvy approach of
 interviewing customers of PBMs, and for having gone to some lengths to solicit input
 from a variety of organizations in preparing this study. We are proud that your report
 references the APhA Principles of Practicefor PharmaceuticalClzreand the Guidelines
forA4edication Incentive Programs, two important consensus documents speaking to the
 appropriate management of drug benefits in today’s health care system. In sum, your
 staff has done an excellent job capturing key elements of drug therapy management
despite the modest amount of information for evaluation which is available from the
 PBMs themselves.

The Pivotal Role of the Pharmacist. While the study examines the experience of health
maintenauce organizations with pharmacy benefits managers, it is important for the
report’s audience to understand that PBM performance depends to a great extent on the
performance of the pharmacists serving the PBM’s enrollees. When it comes to patient
care, the functional unit of the PBM is the pharmacist. Nowhere is this more evident
than in the area of quality measurement and assurance.

Pharmacists at the patient interface, loosely organized in networks created and
administered by the benefits managers, are key to the delivery of cost effective, high
quality pharmacy services. Unfortunately, certain features of these networks not Only
fail to support high quality pharmacy practice, but tend instead to undermine quality.



                                               1

 Ms. June Gibbs Brown
 January 23, 1997

Consider, for example, that most pharmacists work for a number of PBM networks.
Each of these PBMs depends on the pharmacist to perform at a high level, and each
PBM attempts to impose its own administrative and other requirements to achieve this
end. Yet neither the pharmacist, nor any one of the individual PBMs with which the
pharmacist is under contract, can reconcile the many conflicting requirements of the
competing PBMs. In fact, one of the dominant realities of contemporary pharmacy
practice is that the practitioner must divert time and attention from patient care to
contend with the conflicting demands of different PBMs. It is unlikely that individual
action by any PBM can resolve this fundamental problem. A solution may depend on
action to eliminate these inefficiencies by standard-setting organizations such as the
National Council of Prescription Drug Programs (NCPDP).

Inasmuch as PBMs repackage, sell, and may someday be held accountable for
pharmacists’ pharmaceutical care services, it is imperative for those reading your report
to understand the need for the PBM to support quality pharmacy practice by the
pharmacists they employ and with whom they contract. In particular, PBMs must be
challenged to integrate their network of community-based pharmacists (who tend to have
strong personal relationships with patients) into the best practices of their clinical
pharmacy centers, which are capable of providing valuable information to patients and
their physicians.

Economic Disincentives for Oualitv Pharmaceutical Care. It is critical for your
examination of the services and impact of PBMs (and managed pharmaceutical benefits
in general) to include reference to economic issues related to drug benefits. Your study
mirrors the reality that virtually all HMOs and their PBMs have used cost control
measures, including restricted networks and discounted fee structures, as the most
common mechanism to manage the drug benefit. While we certainly respect the role
these strategies play in achieving one of the-aims of drug benefit management -drug
product cost containment- it will be hazardous to-the-health of elderly and low income
Americans if this limited objective remains the primary preoccupation of PBMs.

PBMs have aggressively undertaken drug product cost containment for many years
without a rigorous analysis of its impact on patient care. hiledicare and Medicaid
officials would be wise to insist on measures to guard against the very real threat that
short-term measures to control drug product prices and consumer access to
pharmaceuticals may inadvertently increase morbidity, mortality, and total health costs.




                                           2

   Ms. June Gibbs Brown
   January 23, 1997

  It is especially important that those responsible for managing drug benefits utilized by
  vulnerable populations, such as the elderly and poor, provide appropriate incentives for
  providers to offer pharmaceutical care services. Previous reports issued by the HHS
  Office of Inspector General (OIG) have called for expanding the clinical role of
  community pharmacists to optimize patient outcomes and total health care costs. One
  OIG report issued in 1991 spoke directly to the need to change the payment strategies
  within pharmacy benefits to more appropriately align economic incentives with the
  imperative of quality care. This practical recommendation has now been echoed in the
  Action Pkm for the Proyision of Useful PrescriptionMedicine Infonnution, which was
  formally endorsed by the HHS Secretary on January 13, 1997.

  While some progress has been achieved toward this end, payment for pharmaceutical care
  lags far behind PBMs’ standard strategy of deeply discounting drug product
  reimbursement. It is an inescapable business reality that these steady reductions in
  product-related payments must force pharmacies to become volume distributors, speeding
- up the dispensing of low- or no-margin drug products to the point where there simply is
  no time to educate patients about compliance or other aspects of their drug therapy.
  Pharmacists are extremely concerned that this trend is rapidly eroding their capacity to
  deliver needed caregiving services to the growing number of older and low income
  Americans enrolled in private and public plans administered by PBMs.

  Poor Oualitv Oversight of Manaped Pharmaceutical Benefits. The report on pages 13-14
  speaks to the lack of review or oversight activities, by either HCFA or State Medicaid
  officials, of PBMs and the quality of their services. APhA commends OIG for raising
  this issue, and urges that the report assign a higher priority to improved quality oversight
  of pharmacy services, both within Federal programs and in all quality review and
  accreditation organizations. In fact, there are troubling signs that -quality oversight of
  Medicaid prescription drug benefits is actually weaker today than it.was four years ago.

  The first problem is structural: maintaining separate -fee for service and managed care
  Medicaid drug benefits programs fragments encounter data and impedes quality oversight
  of drug benefits. Retrospective drug use review (DUR) programs examine prescribing
  and utlization data to identify potential quality problems (e.g., identifying prescribers or
  dispensers associated with potentially hazardous practices). The best of these programs
  venture outside the confines of the drug benefit by merging drug utilization data with
  other health care utilization data to investigate potential causes and costs of drug-related
  morbidity and mortality. When a large share of Medicaid prescription utilization data
  is captured and maintained by managed care entities, Medicaid quality officials camrot
  access the information, and quality oversight is undermined.


                                               3
 Ms. June Gibbs Brown
 January 23, 1997

Another problem is HCFA’s practice in recent years to routinely waive the only existing
quality requirements for Medicaid drug benefits --the Drug Use Review (DUR) program
that just took effect in 1993-- when approving State requests to provide Medicaid benefits
to low income individuals through managed care organizations. It remains unclear
whether the managed care organizations operating under these waivers are accountable
to public officials to provide an equivalent quality oversight mechanism in lieu of the
Federal DUR safeguards. This area deserves further attention by the OIG.

With respect to prospective DUR (one element of the Federal DUR statute), PBMs
generally have grafted these features on to the online systems originally developed for
claims adjudication (please see page eight of the report). Much more thought needs to
go into such systems before they can be valid and reliable as a quality improvement tool
for pharmacists. For example, the text of the OIG report should note the lack of
uniformity of criteria used to generate warning messages pertinent to individual patients’
therapies. The result of such inconsistencies is a barrage of conflicting messages sent
to the pharmacist. It is fair to say that the content of these warnings depends to a great
extent on the identity of the company managing the patient’s drug benefit, rather than on
established scientific knowledge of drug interactions, dosage problems, and the like.

Recent research (accepted for publication in a peer reviewed medical journal) has
confirmed the existence of conflicts between the DUR programs serving public health
programs. More troubling still is the revelation in this article that such programs all too
often alert the pharmacist to clinical dangers which are not supported by the scientific
literature. This phenomenon of “false positive” messages --messages alerting the
pharmacist to a danger which either does not exist, or is clinically unimportant -- remains
a problem which is at once well-known but much neglected by software vendors, PBMs
and others. When commercial software programs repeatedly cry Ywolf” on dozens of
occasions daily many pharmacists become inured to these-warnings, and are more likely
to miss meaningful “alerts” generated by the computer.

Equally worrisome is the tendency for some of these software packages to fail to generate
“alerts” which are well-substantiated. To the extent that warnings, and the absence of
appropriate warnings, are taken seriously by pharmacy practitioners (who may then
contact the prescriber), such inconsistencies simply promote prescribing and dispensing
behavior which is scientifically unfounded. These defects in commonly used prospective
DUR programs explain much of the limited impact of these software programs in
preventing adverse drug events, and deserve a serious mention in the report.




                                            4

 Ms. June Gibbs Brown
 January 23, 1997

 In sum, to avoid further diminution of what OIG has correctly identified as inadequate
 quality oversight of drug benefit programs, managed care contractors should be
 accountable to precisely document the quality oversight efforts they offer in lieu of the
 statutory DUR program. Another improvement would be an obligation for such
 contractors to cooperate with State Medicaid officials by sharing data on drug utilization
 in a mutually agreeable format. Finally, OIG could usefully inquire into the substance
 and documented accomplishments of these parallel programs --both in Medicaid’s fee for
 service and managed care drug benefit programs-- and recommend enhancements.

Measures of Oualitv of Pharmacv Practice. Existing tools for quality oversight in
managed care, particularly pharmacy performance measures, remain primitive. These
must be improved to extend beyond simple analyses of parameters, such as “per member
per month” prescription drug charges, that offer no true insight into the quality of
prescribing or patient care. APhA concurs with your recommendations, and particularly
recommendation #3, which calls on Federal agencies to actively engage the private sector
to expand existing efforts to define and utilize quality measures for pharmacy services.

It is true that these efforts lag behind the progress being made to define relevant and
valid measures of quality for hospitals, health plans, and physicians. However, AI%4
and other pharmacy organizations have been working both individually and collectively
for some time to define a framework for quality measurement and to communicate to
quality assurance and accreditation organizations the need to improve their performance
measures of pharmacy and drug therapy. We enthusiastically encourage the Health Care
Financing Administration (HCFA), the Health Resources and Services Administration
(HRSA), the Centers for Disease Control and Prevention (CDC) and other Federal
agencies to join us in this important effort.

In this regard, please note the Association will be expanding its quality initiatives
considerably in 1997. Within the context of a new center of activity, APhA will offer
a clearinghouse for information pertinent to the quality of pharmacy practice, and will
initiate research to identify and validate proposed.measures of quality. APhA intends to
develop programs which recognize and reward excellence in services provided by
pharmacists in all practice settings. We believe that this effort, coordinated with the
work of other organizations in pharmacy and the health professional community, will
help build understanding of the importance of quality measurement and improvement and
stimulate the delivery of health-promoting pharmaceutical care.

Confidentialitv. The issues raised in the report pertaining to patient confidentiality are
also extremely important. Appropriate protection against unauthorized disclosure of
sensitive personal information must be guaranteed, while at the same time permitting
practitioners the opportunity to exchange information about prescribing, patient
compliance, and other patient care concerns. Establishing different criteria for access

                                            5
Ms. June Gibbs Brown
January 23, 1997

and sharing of data by and among health care professionals, as distinguished from PBMs
and other administrative entities, would be a fruitful approach to resolution of this
problem. APhA has developed recommendations in the context of implementation of the
Health Insurance Portability and Accountability Act, available upon request, which
address this issue more fully.

Again, please accept my congratulations for producing such a substantive contribution
to the emerging literature on this important subject. APU is committed to assisting OIG
and others challenged by the report’s recommendations. Please don’t hesitate to contact
me or my staff for additional information, or for clarification of any element of our
comments.




                                         6

                                                   ASEP                                          le,UUZ/UUP




   Januaty 6.1997 



   June Gibbs Brown 

   IaspceterGencral 

   Dqmttmnt of Health and Human Services 

   5250 Cohen Building 

   ,330 Indmdcnce Avenue, S.W. 

    washhlgtoa, DC 20201 





   JkarMs. Brown: 


     The Atneriw So&y of Health-System E&umacists appnciates the opportunity to comment on 

     the draft report xefcrcncui above. ASHP is the 30,000 momb8r natload pfofaional organiza­

     @onthat repseats @amaciats who praulee ia hospitals, health maintenance ofgmization~, 

.,’ 	long-&mcarefaciUties,homccam,andothercwaponen              ts of health cam networks. Because the
     HMO en-t             rcpraseats oat of the fastest growing scgmcnts of our mcmbcrship, we have a ,
     particularh%erestinthesuhjectmattcrofthcdraftmport.                 .

   ASHP is in generalagteaam twitbthcrecoalmmdatlonBcon~edinthedraftreport.                  Quality
   of cam and patiat outcomes arc the primaty consideration of our membership, and we share the 

   Department’s coaeom that mat containmemnot buzomc the ddver of h&&h cum dclivay, as 

   opposed to the natural and inevitah~omsult of prudent health care practices. We also share the 

   concernexp~sadinthtdroft~Chatrherewdscsav~~potcntialforbiassterrrmkrgfrom 

   the relationship of a phm        bon&t maaagcment company (PBM) to a specific phmtid 

   manufacturer. Where wc have suggestions in addition to the recommendations arrived at in the 

   ataftnportisiathoptopos~fforf;bdaral~~agenciesto&~lapayardstickforthc 

   accountability of Medicare and h&ii&i HMOs for the quality of the services tiadctecl by PBMs 

   to bencficiarics. while this is a totally Icgitimate objective ovcralf, aud one that ASHP can 

   support, westrongiy eueoura& the acpartment to co&borate with &sting cndontiallng and 

   standards writing bodies that aheady possess the most in-depth expcricnce and data on the 

   subject of health cam quality. 





   7272   WEONSIN     AVENUE    w   BEHESDA, MD 20814      m   301-657-3000      8   FAX: 301-652-8278
                0x/07/07     12:42   e3Ql 667 1616                 ASEP                                          QJooJ/uuo




                     JuneGiiBrown                    ..
t
        \            January 61997
                                            6.   .
                     pase2




                    ‘lb National Committee for Quality Assutanct (NCQA) is an accmd&ion body considerably
                    knowledgeable of and zsponslllo for stand&&d quality of cam in HMOs. The Joint
                    Gxnmission on Accreditatioxof Healthcam organithtian (JCAHO), t2~ national acxm%&g
                    body for hospitals aad other health cam organizatim~, also has 00Wlc    involvomcmtin this
                    ma ASHPhasbcMIavalunrary~~~tobottrN%QAandJCAHOonotandatQptltintntto
                    phannacellticalcareandpharmacy~.            ~OCglUli#tiOXlS~tbalOgidS~~

                    for~~$reconoerrrs~in~odnrA~~wd~bticlvaluablcsouFctsofinfo~­

                    tion for the Health Cam Financing Adminiseradon (HCFA) ia assessingthe qdity of services 

                    al%rdedtoMedlcareandMedieaidbeneficlaxiesbyF’BMs. 


                    The iqut of he&h profcssionais such as pharmacists who axedirectly responsible for drug man­

                    agemext in HMOs, whether or not 0ffiliatod with PBM6,is also escndal to safeguard against 

                    shppageinthequalityofth      c scrvlw t        ix these environments For example. ASIIP has 

                    been aotive in the development of spcclfii standards as well 8s generrd guidance on the dcvolop­

                    mat of formulsry systems and their management, which have formed the basis for mnt 

s                   ataxe     of accaptable practice in HMOs. The forfm&ry m           as a moaus of local, informed,
    t	              int&diacipllnary dccisi~+naking about the best therapeutic agents (drugs) to have available, was
                    pioneer& in hospitals. ASHP has a long history of fbtering that sort of fozmulaty system, and
                    we stand ready to advise the Department and others on standards to ensum the operation of such
                    good fdimulary systems. Our published standards (which generatiy arc not hospital-specEc) am
                    aimedar~primatygoalof~~thtrapy,withcORbeinganimportantbut~xdary
                    coxcem. It appears to ASXP thac’PBMshave, to date. focused on the cost-minimization aspects
                    offonuularies and less on the goal of optim&g therapy. We welcome the opportunity to share
                    our expertise with practitioner groups md other intemsted ocgadations with the objective of
                    developing guideIines to assess and &sure the quality of pharmacy servicesprovided by PBMs.
            -       Con&lerablo valuable material ahzady exists on the subject, and as a starting poiu&a list of
                    ASHP’Brckvmt guidaxce documents is cmhcd. Referenw to and reliance upon these docu­
                    met@. and those published by other’crcdiblc standards writing bodies, wili render the task of
                    dcvcloping reasoxable guldeiiIle0 foeBIt!& usedby HMOSless onerousthatrit may currently
                    appear.

                    From a more practical business viewpoint, HMOs must lcam to be better negotiators with PBMs
                    for quahty scTyices,realEng that, ultimately, they will be competing for padents on the basis of
                    quality just as they now compete for customers (i.e., employers) on a cost basis. An underlying
                    problem that must be addxusscdis that, because of their short-term focus on low mimbursement
                    rates forprescription medicines, PBMs have geucraily not provided incentives for ambulatory
                    care pharmacists to provide various cognitive services that help HMO beneficiaries make the best
    I               use of-medications. Thus, while money may bo saved in drug expen$iturcs, overall health care
         01/07/87   It:42     f$SOl 667 1616              ASHP                                          EbOO4/006




              Juuo C3ibbsBrown
              January 6,197
              page3



             costs “~“,beiugixucnsai bocaxsa of subscqucntiatcrvcnti~  to deal with adverse events t& a
.            pharmaclstcouldhave~vcntcd’hadtbapBMpaymest~~o~theptopacncouragt-
    I	       maxt This is a s&n~ ique for Medicaroand Medicaid beneficiaries scrvuiby HMOs, and we
             urgeyoutostrcr@mtispointinttlercpo~         Tos-           there is a dofiite role for educa­
             tion hem. ASHP would support offom to foster the eduoation of consum- @adents and
             employers) regard@ the nature axd bmefit of phmmcmicti cam semi= that they sboald
             expectfmmthelrHM0.

             ASEIPlooks fawad to working with the Dqwtmcah HCFA, NC@, JCAHO, and private
             sectorpbarmaqorganizationstoaddressthcooncemsraisedinthadraft~              Pltastcallus
             for additional wmmcnts, and advise us of a do thatwe may play in tbc upcoming prooms.




           &Pmph A. Oddis, Sc.D.
            Executive Vice President
01/07/W   12:42   =601 667 1616 

                            9            Consumer
                                                Coalition
                                         for QualityHeaIthCam


       December 30, 1996



      June Gibbs Brown
      Inspector General
      Office of the Inspector General
      Department of Health and Human Services
      330 Independence Avenue, S.W.
      Washington DC, 20201

      Dear Inspector General Brown:

      The Consumer Coalition for Quality Health Care appreciates the opportunity to comment on
      your draft report, “Experiences of Heaith Maintenance Organizations with Pharmacy Benefit
      Management Companies. n The Consumer Coalition represents national consumer groups with
      an interest in advancing policies and programs that protect and improve the quality health care
      for alf Americans. During the holiday season we did not have adequate time to solicit the
      views of our membership but we are confident that the following comments on the draft report
      reflect current member thinking.

      The Consumer Coalition enthusiastically endorses the report’s recommendations. The
      importance of outpatient prescription drugs, particularly for the elderly population, and the
      extensive use of pharmacy benefit management companies (PBMs) by HMOs argue for
      expanded government oversight of the services these companies provide within HMO delivery
      systems. Government and private payer contracts with HMOs should include language that
      require HMOs to evaluate the performance of PBMs. Public and private payers should
      conduct independent evaluations of HI4Os to ensure that systems of quality accountability have
      been established between the HMO and PBM subcontractors. In principle, the Consumer
      Coalition believes that HMOs should be held responsible for the performance of all its
      subcontractors, including PBMs.

      The Consumer Coalition recommends that the evaluation of HMO arrangements with PBMs
      highlight issues of direct relevance to the consumer. Chief among these are formulary
      development, marketing of drug benefits, the appeals system for reduction or denial of
      prescription drugs, and patient conficientiaIity.

      The oversight of HMO arrangements with PBMs should start with the appropriateness of drug
      formularies, particularly in light of the ownership of PBMs by drug manufacturers. Next,
      HMO marketing and benefit coverage materials should be required to include a clear
      description of a plan’s drug benefit, the specific contents of any drug formuIary, the drug


1275 K Street N.W., Suite 602   �  Washingto&   DC 20005 �  (202) 789-3606         �    Fax (202) 898-2359
                                                                                                      -.e*>
                                Brian W. Lfndberg. Executive Director
  June Gibbs Brown Correspondence
  Page Two



  utilization review pro,cess, and complete information on an enrollee’s right to appeal a drug
  benefit decision. PBMs should also be evaluated for maintaining systems that safeguard patient
  confidentiality.

  Finally, the Consumer Coalition is in agreement with the report’s recommendation that explicit
  quality measures be developed for pharmacy practice. Current HMO licensing/accreditation
  standards and Medicare/Medicaid conditions of participation do not include quality measures
  for pharmacy practice, leaving au important component of medical practice within HMO
  delivery systems unregulated. The development of explicit quality standards for pharmacy
  practice should become a priority for government regulators, private accrediting bodies,
  payers, and consumer groups with appropriate input from the pharmacy profession.

  Once again, the Consumer Coalition appreciates the opportunity to comment on the draft
  report.

  Sincerely,

+M
 Brian Lindberg 5
 Executive Director
                                                                                                                       PI 10       .--

FEB-24$ -$NJ
           - 7121f lb:51 OIG OEI                                                                                        P. 02             ,
                                 REGiON
                              EVAL     1
                                  ANDINSPECT                                FAXFAX  84107869184
                                                                                NO,NO,2024010556              .
    c.




                                                                                                                  i:
        OEPARTMENT            OF HUMAN    SEFIVICCS                                                WINILES   M. P&bhER. DIREC?‘~




                      June QibbsEfowrl
                      hspedof General
                      Clfke of lnspeotw General
                      Department of Heatth and Human Servfces
                      Wa6hlngton, D.C. 2om

                      Dear Ms. 0mm:

                      This is in reply to your letter of December2,1996 requestingreviewand
                      commenton the draftinspectionrepart,‘Experiencesof He&h Maitienanoe
                      Or@ucizations WI PharmacyBenefitManagementCc~~panies/ You submitted
                      the reportto MB in My aptachy      as Chairof the MediiId l=Wmacy TeCtInkal
                      AdvisoryOroup(P-TAG).




                      �    Thedefinition ol gu&itycan be quitewiebfe and needs to be analyzed from
                           ~Mtipie vieupMss i.e., beneficiary,p&yw, @-widerand heatth Cwtoomes.

        7         ’   �    Caution is urgedtfwtthe qualitymeawes developedfor uwby Medicare                                    .          a-
                           may or IMy not be applicable(in total or in pwt) to Medicaid. ficperm
                           withHEDfSrevealthat. Iha mportk~nguageseemsto htpHythat Medicafd
                           &Odd fofhawtheMedllm lead. PwhapeWc&d be statedthat Medicald
                           can learnfromMm       butstatesalsoneed 10addressqualityissuesthat
                           are uniqueti the MedWd popufatff,

                      .    01G recommends that HCFA, FDA, and the tiealth Reswrces      and Service8
                           AdmInistratton  build6n existing@RX@io de~&p qualkymea~ure6fOr
                           pharmacypracticein managedcare settings.The P-TAG suggeststhat
                           states be fnvolved in tnis effart, Perfwps,the P-TAG couldalso be a
                           contrtblltor.




                               HOOVER    STATE   OFF IGk BUIl.OING   �    DES   MOINES. (OWA 50319-01 i4
 MS-.       . .
                                                                                             P, 11
                        OIG OEI REGION I              FAXNO, 84107869184
FEB-24-97 HON 17:12                                 (   F@jNO, ?024?10556       ,             P,03
      Jp-12-w  ww lb:52      EVALANDINSPECT
  .
                     I




                 he GibbsBrown
                 February5‘1997
                 Page Tvm




              Owmll, I believethe mportaccurately t33figcts
                                                         the currentatatw of the relation­
              shipbeb?en HMO88d PBMS.




                                             OonafdVU.Herman
                                             AdmimcK
                                             DIVISION OF MERtCALSERVICESand
                                             Chair,Phmnacylectmical Ad&my G6.p

         ,;   0H:JM:vh .                                                                         .   .   ‘.a
                                   APPENDIX                E





                                            NOTES



1. Nationally, enrollment in HMOs grew from approximately 36 million to 58 million
between 1990 and 1995. (See American Association of Health Plans, 1995 AAHP Hit40
PPO 7?end.s Report, Washington, D.C.)


2. By mid-1996, the number of risk plans contracting with HCFA had grown to
nearly 220. Medicare’s risk contracts have become more attractive to HMOs, which
operate in a highly competitive marketplaces and face continuing pressures to hold down
costs and generate revenues. The HCFA’s average payments to its risk contractors, per
enrollee, have continued to increase (10.1 percent in 1996 and 5.9 percent in 1997).

For recent discussion of Medicare-risk   contracts, see:

  “Medicare Risk Payments Rise 5.9%..,” News and Strategies for Managed Medicare &
  Medicaid, 2 (September 9, 1996) 19: 1.

  “New Ideas for Medicare Risk,” Perspectives, Medicine and Health, July 1, 1996.

  Louise J. Sargent et al., “Overview of Medicare for Managed Care Professionals,”
  Journal of Managed Care Pharmacy, 2 (March/April 1996) 2: 165-172.

  Health Care Financing Administration,     Medicare Managed Care MonthZy Report, July
  1996.

   Value Line, July 5, 1996, Medical Services Industry, 656.


3. U.S. General Accounting  Office, Medicare and Medicaid: Opportunities to Save
Program Dollars by Reducing Fraud and Abuse, Testimony of Sarah F. Jaggar, Director,
Health Financing and Policy Issues, Health, Education, and Human Services Division,
before the Subcommittee on Human Resources and Intergovernmental     Relations of the
Committee on Government Reform and Oversight, U.S. House of Representatives,
March 22, 1995.

Jane E. Sisk, PhD. et al., “Evaluation of Medicaid Managed Care,” Journal of the
American Medical Association, 276 (July 3, 1996) 1: 50-55.


                                              E-l
   See also comments on the draft report (appendix D) from the Health Care Financing
   Administration.


   4. James S. Genuardi et al., “Changing Prescription Drug Sector: New Expenditure
   Methodologies,” Health Care Financing Review, 17 (Spring 1996) 3: 192.


   5. U.S. Department of Health and Human Services, Health Care Financing
   Administration, Bureau of Data Management and Strategy, “Medicaid Vendor Payments
   by Type of Service, 1993-1995.”


    6. With few exceptions, Medicare has not generally paid for outpatient prescription
    drugs under Part B. Coverage for drugs is allowed by some Medigap policies, which can
* 	 be purchased separately by beneficiaries. But because many beneficiaries have no drug
    coverage, risk HMOs that offer prescription drug benefits are very appealing to
    beneficiaries. Nearly two-thirds of these risk plans now offer prescription coverage.
    Although HCFA does not pay for this benefit directly, it does pay for it indirectly: the
    prescription drug benefit is considered an additional benefit, one that is supported with
    excess Medicare profits to the HMOs, which they would otherwise return to HCFA.

   For additional information   on drugs and Medicare, see:

      HCFA, Medicare Managed Care Monthly Report, July 1996.

           I 1995 Guide to Health Insurance for People with Medicare, Publication        No.
     HCFA-02110, revised January 1995.

     Stephen H. Long, “Prescription Drugs and the Elderly:       Issues and Options,” 158
     Health Affairs, Spring (II) 1994.

     Lynn Etheredge, Consultant, Pharmacy Benefit Management: The Right Rx?, Research
     Agenda Brief sponsored by the Health Insurance Reform Project at George
     Washington University, Washington, DC, 1995.


   7. For fuller description of issues associated with mismedication,   noncompliance,    and
   drug use among the elderly, see:

     Adverse Drug Reactions in the Elderly: Hearing before the Special Committee on Aging,
     United States Senate, 104th Cong., 2nd Sess., March 28, 1996.

      U.S. General Accounting Office, Prescription Drugs and the EMerIy: Many Still Receive
     Potentially Harmful Drugs Despite Recent Improvements,



                                                 E-2 

   GAO/HEHS-95-152,        July 1995.

   Jeffrey A. Johnson et al., “Drug-Related Morbidity and Mortality: A Cost-of-Illness
   Model,” Archives of Internal Medicine, 155 (October 9, 1995), 1949-1956.

  Stephen H. Long, “Prescription        Drugs and the Elderly:    Issues and Options,” Health
  Afsirs 158 Spring (II) 1994.

   Robert McCarthy, “Patient Compliance:            Strategies to Overcome a Costly Problem,”
   Medical Utilization Management 24 (July 11, 1996) 14: 5-8.

   Stephen C. Montamat,  M.D. et al., “Management of Drug Therapy in the Elderly,”
   The New England Journal of Medicine, 321 (August 3, 1989) 5, 303-309.

   Sharon M. Willcox et al., “Inappropriate Drug Prescribing for the Community-Dwelling
   Elderly,” Journal of the American Medical Association, 272 (July 27, 1994) 4: 292-296.


   U.S. General Accounting     Office, Pharmacy Benefit Managers: Early Results on
Ventzues, with Drug Manufactureq HEHS-96-45, November 1995. Our analysis reflects
GAO’s estimates of the five largest PBMs at the time of its report: Medco Containment
Services, Inc.; Diversified Pharmaceutical Services (DPS); PCS Health Systems, Inc.;
Caremark International, Inc.; Value Health/Value Rx.

It is important to note, however, that estimates of the size of PBMs vary and are subject
to change in this rapidly evolving marketplace.


9. Benefit structure includes such items as co-payments and deductibles, breadth and
depth of the formulary, and prior authorization requirements.     Approaches to managing
the benefit include those such as generic and therapeutic interchange programs;
developing and applying criteria and standards guiding utilization reviews;.drug therapy
protocols, educational interventions, and cost-effectiveness studies.


10. The three PBMs owned by drug companies are Medco Containment Services, Inc.,
purchased by Merck & Co. for $6.6 billion in 1993; Diversified Pharmaceutical Services
(DPS), purchased by SmithKline Beecham Corporation for $2.3 billion in 1994; and PCS
Health Systems, Inc. (PCS), purchased by Eli Lilly and Company for $4 billion in 1994.

The other two largest PBMs, Caremark International, Inc. and Value Health/Value Rx,
are not owned by drug companies, but have strategic alliances and partnerships with
them.

For fuller descriptions   of these relationships,    see:




                                                    E-3 

   U.S. General Accounting Office, Pharmacy Benefit Managers.

   Lynn Etheredge, Pharmacy Benefit Management:     The Right Rx?

   Week& Pharmacy Reports--”The Green Sheet,” 45 (January   22, 1996) 4.


11. The Federal Trade Commission reviewed the Lilly-PCS merger of 1994 for its anti-
competitive implications. The Commissioners, in a 3-l vote with one recusal,
subsequently approved a consent agreement with Lilly that requires the company to
maintain an “open formulary” that includes any drug approved by an independent
Pharmacy and Therapeutics (P & T) Committee and requires that PCS accept discounts,
etc. offered by Lilly competitors for drugs on the open formulary and to reflect these
discounts in the forrnulary rankings. Finally, the agreement prohibits PCS from sharing
proprietary information with Lilly. This requirement has become known as the “firewall”
provision. The Commission stated its intentions to continue to monitor this and other
mergers. (See Federal Trade Commission, “FTC Gives Final Approval to Lilly Order;
Pledges Continued Monitoring for Anticompetitive Practices,” FTC News, July 31, 1995.)

The consent agreement has been widely criticized. One Commissioner dissented at the
time of the agreement, and numerous consumer and pharmacy organizations complained.
In July 1996, the Commission was again petitioned on this issue by a pharmacy trade
organization, charging that drug manufacturer ownership of PBMs continues to be anti-
competitive and harmful to consumers. It urges the FTC to modify and strengthen the
1995 consent agreement.


12. In 1994, the Food and Drug Administration met with representatives from several
PBMs and drug manufacturers to discuss information that is disseminated about drug
products by the PBMS. It also convened a public hearing in October 1995 on the topic
of “Pharmaceutical Marketing and Information Exchange in the Managed Care
Environment” to help inform its deliberations about regulating drug marketing and
promotion by drug manufacturers and PBMs. (See FDA, Transcript 95N.0228,
October 19, 1995.)


13. For a general oveniew   of PBMs, see:

  U.S. Department of Health and Human Services, Health Care Financing
  Administration, “Assessment of the Impact of Pharmacy Benefit Managers,”    Contract
  No. HCFA-95-023/PK, September 30, 1996.

  U.S. General Accounting Office, Pharmacy Benefit Managers.

  Lynn Etheredge,   Pharmacy Benefit Management:    The Right Rx?




                                            E-4 

   Anita M. McGahan, “Industry Structure and Competitive      Advantage, Harvard Business
   Review, November-December   1994, 115-124.


13. Most (87 percent) HMOs that serve Medicare and Medicaid beneficiaries        use their
PBM to manage the beneficiaries’ prescription drug benefits.


15. The for-profit plans are statistically more likely to use PBMs than the non-profit
plans (Chi-square=6.709, DF= 1, significant at the .Ol level). There is also a statistically
significant difference between the number of for-profit and non-profit HMOs responding
to our survey (Chi-square=6.453, DF=l, significant at the .Ol level). (See appendix B.)
When we estimated the effect of the nonresponse bias on this question of whether or not
there was an association between an HMO’s tax status and whether or not it contracts
with an external PBM, we found that taking into account the tax status of the
nonrespondents affected the percentages less than one percent.


16. Of the 263 HMOs responding to our survey, 199 report they use PBMs
(75 percent). These 199 HMOs represent 303 local plans. Some of these local plans
(185) are unaffiliated with any national or regional managed care organizations. The rest
(118) are local plans affiliated with national or regional managed care organizations (see
appendix A).


17. Thirty-one (31) of the 368 HMOs did not report data on the number of covered lives
for the AMCRA data base.

Twenty-seven percent (53/199) of the HMOs, covering 8 million lives, suggest they may
manage their pharmacy benefits in-house over the next few years. Twenty-two percent
(14/63) of the HMOs not using PBMs, covering nearly 1 million lives, suggest they may
contract with PBMs in the next couple of years.


18. The Omnibus Budget Reconciliation Act of 1990 (OBRA 90) exempts HMOs from
having to conduct prospective and retrospective drug use reviews under the federally
mandated Drug Use Review Program for Medicaid.


19. Formularies (which are lists of drugs approved for reimbursement by payers) can be
extremely important tools for managing the costs of prescription drug benefits. They also
can have significant impact on the quality of pharmacy programs and their consequences
for patients’ health outcomes.

The consequences of formularies for cost and quality are controversial. They are the
focus of significant interest by payers, regulators, consumer and industry groups, and
researchers.


                                             E-5
For some recent discussion of these issues, see:

       Naomi Freundlich,   “Formularies:    Friend or Foe?,” Harvard Health Letter,
       July 1995;

       Susan D. Horn, PhD. et al., “Intended and Unintended Consequences of HMO
       Cost-Containment    Strategies: Results from the Managed Care Outcomes Project,”
       and “Managed Care Outcomes Project: Study Design, Baseline Patient
       Characteristics, and Outcome Measures,” The American Journal of Managed Care,
       II (March 1996) 3: 253-264 and 237-247.

       Bryan L. Walser et al., “Do Open Formularies Increase Access To Clinically
       Useful Drugs ?,‘I Health Aflairs, 15 (Fall 1996) 3: 95-107.


20. Drug manufacturers are relying less on price increases for improving their profits
and more on increasing market share through their arrangements with PBMs, which
develop and/or control the formularies used by large purchasers such as HMOs.

For their part, PBMs are interested in getting the best price for the products on their
formularies, so they can compete more successfully for contracts with purchasers such as
HMOS.

For a historical overview of the pharmaceutical industry and changes resulting from
PBMs, see Anita M. McGahan, “Industry Structure and Competitive Advantage.”


21. Some argue that PBMs’ practices can be anti-competitive and, in fact, encourage
higher costs to consumers. As we have noted above, these issues were central to the
review of the Lilly-PCS merger by the Federal Trade Commission.


22. For a discussion of the cost-effectiveness of DUR programs, see Stephen B.
Soumerai, Sc.D. and Helene L. Lipton, Ph.D., “Computer-Based Drug-Utilization
Review--Risk, Benefit, or Boondoggle ?,” The New England Journal of Medicine, 332 (June
15, 1995) 24: 1641-1645.

A recent GAO report documented savings attributable to drug use review programs in
five State Medicaid programs. See U.S. General Accounting Office, Prescription Drugs
and Medicaid:   Automated Review Systems Can Help Promote Safety, Save Money,
GAO/AIMD-96-72,      June 1996.


23. Health Care Financing Administration,     Assessment of the Impact of Pharmacy Benefit
Managers, Contract HCFA-95-023/PK.



                                              E-6 

Another recent, independent study of one large purchaser’s experiences documents the
significant savings that it achieved by using its two PBMs to implement a benefit change.
See U.S. General Accounting Office, Blue Cross FEHBP Pharmacy Benefits,
GAO/HEHS-96-182R, July 1996.


24. Disease management programs are being developed by drug manufacturers, health
plans, and specialty care organizations as well as by PBMs. These programs are widely
discussed: what they are, what they do, what will be their value and consequences in
terms of cost and quality of health care. For recent discussion of these issues, see:

      Robert McCarthy, “Disease Management:         A Critical Look,” Medical Utilization
      Management, December 21, 1995.

       Kenneth Moss, “DSM: A Concept Coming Into Focus,” Perspectives, Medicine &
      Health, 50 (August 12, 1996) 32.

      George Anders, “Drug Makers Help Manage Patient Care,” The Wall Street
      Journal, May 17, 1995.


25. In using PBMs, HMOs “carve out” the management of the benefit, thereby making it
more difficult and less likely for plans and payers to assess the impact of pharmacy costs
on overall health care costs. With a “carved out” benefit, pharmacy costs are treated
separately from other health care costs, and pharmacy data and medical data are often
not linked together.

It is important to recognize that reducing overall health care costs may require increased
expenditures on prescription drugs, as, for instance, may be true for the emerging disease
management programs.


26. A few PBMs are now developing computer connectivity with ,physicians’. offices. This
capability will enable on-line discussion between the PBM and the physician about the
appropriate drug therapy for a patient before s/he leaves the physician’s office with a
prescription.


27. For a fuller description of PBMs and their influence on costs and market share, see:

      Charles Beever, “Why PBMs Work--And Why They Don’t,” In Vivo,
      12 (November 1994) 10: 8-13.

      Health Care Financing Administration, Assessment of the Impact of Pharmacy
      Benefit Manag&,  Contract HCFA-95-023/PK.



                                            E-7 

28. Examining concerns about bias on the part of HMOs who deal directly with drug
manufacturers was beyond the scope of this inquiry.


29. The GAO, reporting in 1995 on its examination of PBMs, found that changes in
Medco’s formularies favored Merck products between 1993 and 1995. Because of the
proprietary nature of the financial negotiations between Medco and other drug
companies, GAO could not confirm these changes resulted without Medco having
considered other competitors’ products. See GAO, Pharmacy Benefit Managers.

The motivation behind the acquisition of PBMs by drug manufacturers     has been
described by senior executives from the companies involved:

      “Merck products are Medco’s house brand. Part of the secret to success will be to 

      develop Merck medicines for categories in which we are not now 

      represented...Consider what happens if instead of having 20 products on the 

      formulary we have 40. The more Merck products on the formulary, the greater 

      our power on the market and the more plan sponsors will save.” (See Nancy A. 

      Nichols, “Medicine, Management, and Mergers: An Interview with Merck’s P. 

      Roy Vagelos,” Harvard Business Review, November-December      1994, 113.) 


      [The senior executive from another drug company owning a PBM] “said there has 

      been some progress [in boosting market share of the company’s products through 

      the PBM]. These capabilities [to switch market share] are what we’re building, 

      and we want to give that a fair shot.” The article summarized another executive 

      from the same company as saying “Lilly also hopes to shift patients to Lilly drugs 

      by hooking up doctors’ offices to pharmacies via computer. Then when the doctor 

      orders a certain drug, the pharmacist will be able to urge an alternative...” (See 

      ES. Browning and Thomas M. Burton, “PCS Gets Rx for Write-Down After Its 

      Weak Performance,” The Wall Street Journal, July 30, 1996.) 



30. Concern about these practices has been widespread among professional
organizations and government agencies concerned with consumer protection,     fraud and
abuse, and with drug product information. For examples:

      (1) 	   The American Medical Association has recently adopted several policies
              and recommendations focussed on acceptable professional practice for drug
              formulary systems, responsibilities of Pharmacy & Therapeutics
              Committees, therapeutic interchange, and prescription switching. See
              Resolution 501, Opposition to Payment for Presctiption Switching, June 1995;
              AMA Policy A-95, Managed Care Cost Containment Involving Prescription
              Drugs, AMA Policy 165.896, Drug Issues in Health System Reform, 1994, and
              AMA Policy 125.991, Drug Formulaties and Therapeutic Interchange, 1993.



                                            E-8 

       (2)    The American Pharmaceutical Association adopted in 1995 its Guidelines
             for Medication Incentive Programs to provide guidance to pharmacists when
              dealing with incentive programs sponsored by drug companies, PBMs, and
              other third-parties to influence choice of drug product dispensed.
              Programs may include coupon programs, therapeutic switch programs,
              academic detailing, and the like.

       (3)    The Attorneys General of several States have joined together in negotiating
              consent agreements with several drug manufacturers in recent years.

             Disclosure issues, particularly with respect to PBMs and drug
             manufacturers, were addressed in the 1995 17-State consumer protection
             settlement negotiated with Merck & Co., Inc. and Medco Containment
             Services, Inc. While not admitting to any legal wrong doing, the companies
             agreed to several provisions including (1) full disclosure of the company
             relationships and drug product manufacturer when pharmacists telephone
             physicians about switching prescriptions, (2) substantiation of claims of cost-
             savings resulting from the switch, (3) written notification of consumers
             about the switch programs, the ownership of the PBM, and their rights to
             refuse the switch, and (4) extent to which Medco will keep confidential the
             patient information in their files and that it might make this information
             available to employers. (See In the Matter ofMerck & Co., Inc. and Medco
             Containment Services, Inc., No. C6-95-10614, Ramsey Co. Dist. Ct.,
             Agreement (Assurance of Discontinuance) and Order Approving Assurance
             of Discontinuance (October 25, 1995), State of Minnesota, Office of the
             Attorney General.)

       (4)   The Office of Inspector General, in the U.S. Department of Health and
             Human Services, raised questions about prescription drug marketing
             practices, including switch programs, in a 1994 Special Fraud Alert,
             Prescription Drug Marketing Schemes.

       (5)   The Food and Drug Administration, as noted above, is considering its
             regulatory responsibilities vis a vis drug product information disseminated
             by PBMs and standards to guide cost-effectiveness research. See also
             David A. Kessler, M.D., et al., “Therapeutic-Class Wars--Drug Promotion       in
             A Competitive Marketplace,” The New England Journal of Medicine, 331
             (November 17, 1994) 10: 1350-1353.

See also: Milt Freudenheim,   “Not Quite What Doctor Ordered,” The New York Times,
October 8, 1996, D-l.




                                            E-9 

31. The American Medical Association, the American Pharmaceutical Association, and
Pharmaceutical Research and Manufacturers of America (then known as the
Pharmaceutical Manufacturers Association) emphasized the importance of using DUR
programs to enhance the quality of patient care in their Principles of Drug Use Review
(DUR) issued in 1991.

Moreover, the Federal Omnibus Budget Reconciliation Act of 1990 (OBRA 90)
mandates DUR programs for Medicaid. It states the purpose of these DUR programs is
“to improve the quality of pharmaceutical care by ensuring that prescriptions are
appropriate, medically necessary, and that they are not likely to result in adverse medical
results.” (See Federal Reg-bter, 59 (September 23, 1994) 184: 48811.) Further, in an effort
to ensure the credibility of the reviews, the law requires that standards for review be
consistent with three authoritative compendia and with peer-reviewed medical .literature.
Finally, the statute requires these predetermined standards be available to the public and
to pharmacists and physicians. (It is important to note that OBRA 90 specifically exempts
HMOs from the Federal requirements for prospective and retrospective reviews for
Medicaid outpatient drugs. It does not, however, preclude States from imposing their
own DUR requirements on HMOs.)

For views on the potential conflict of interest in the DUR programs of PBMs and the
importance of disclosure principles, see Stephen B. Soumerai, SC-D. et al., “Computer-
Based Drug-Utilization Review--Risk’ Benefit, or Boondoggle?,” The New EngZand
Journal of Medicine.


32. These efforts include one-on-one interventions by PBMs with providers or patients,
including disease state management programs, as well as more broadly based education
programs directed to groups of providers or patients.


33. See Note 12.


34. 	 Gina Kolata, “New Frontier In Research:   Mining Patient Records,” Z%eNew York
limes, August 9, 1994, A21.

Questions arise about the credibility and validity of this research, whether conducted by
PBMs, drug manufacturers, or others, because there is no consensus on standards for
conducting these studies to ensure the validity and objectivity of the results. The FDA
addressed this issue in its public hearing on “Pharmaceutical Marketing and Information
Exchange in Managed Care Environments” in October 1995.


35. Having access to these databases figured prominently   in the manufacturers’   decisions
to purchase the PBMs in 1993 and 1994.




                                            E- 10 

A former drug company executive, who oversaw his company’s acquisition of a large
PBM, commented in an inteniew:

       We saw a tremendous opportunity to create a new model for the pharmaceutical
       industry that would simultaneously improve the quality of health care, help contain
       costs, and increase Merck’s market share. Expanding our information base is
       critical to these goals. (See Nancy A. Nichols, “Medicine, Management, and
       Mergers: An Interview with Merck’s P. Roy Vagelos,” Harvard Business Review,
       106.

Another news report summarizes comments of a drug manufacturer          executive about his
company’s programs with its PBM:

       [He] listed several steps Lilly plans to take to “ensure the continued growth of
       Prozac in the U.S.” during 1995, including tie-ins with-Lilly’s pharmacy benefit
       management subsidiary PCS... “Analysis of patient pharmaceutical care data can
       help identify people who are being treated for what appear to be unrelated
       ailments but are in fact symptoms of depression. As a result, information can help
       us develop depression management programs for our managed care customers
       that include Prozac...In one PCS database, we also found that half of the 50,000
       people taking an antidepressant remained on their medication for less than 90
       days...PCS information can help ensure that patients continue Prozac for as long
       as they need it.”...PCS is also “pursuing a number of other relationships, including
       the development of capabilities involving mail order and other delivery systems
       and new interventions that encourage physicians to switch” prescriptions, Taurel
       said. “We believe that PCS will be most successful in changing prescriptions in the
       retail sector that still comprises the overwhelming majority of scripts in the U.S.”

The article further mentions Lilly’s physician education program for antidepressant
therapy, its development of a clinical labs network, and the introduction of its electronic
prescription network linking pharmacies with physicians’ offices (which will transmit
prescription data including information on .the physician, the patient, and the ICD-9
code). (See F-D-C Reports--“The Pink Sheet,” May 22, 1995, 11-13.)

See also: “Who’s Reading your Medical Records?,” Consumer Reports, October 1994,
628-632.


36. Examples of the PBMs with integrated databases include DPS, PCS, Caremark,          and
Express Scripts.

Diversified Pharmaceutical Services (DPS) had its beginnings in an HMO before it was
sold to SmithKline Beecham. It maintains integrated databases of patients’ pharmacy
and medical information. And PCS Health Systems bought an interest in a company that
coordinates patient information among hospitals, physicians, and other providers. (See
Greg Muirhead, “The ABCs of PBMs,” Drug Topics, September 5, 1994, 68, 78.)


                                             E- 11
The same pharmacy publication reports on a recently established           link between medical
and pharmacy data for another PBM as follows:

       Caremark and [Blue Cross] Idaho are forming a new PBM as a joint venture, to
       target markets within Idaho. The PBM will begin with 282,000 members enrolled
       in BC Idaho’s health plans. As part of the deal, Caremark will gain access to
       “medical and prescription drug patient data that will facilitate the company’s
       outcomes research initiatives and on-going development of disease management
       programs.” (See Greg Muirhead, “Network Notes,” Drug Topics, September 4,
       1995, 40.)

Finally, according to Weekly Pharmacy Reports--“The Green Sheet, ” Express Scripts “will
integrate what is happening on the pharmacy side with the medical data from the patient
side through its Practice Patterns Science subsidiary.” (May 27, 1996, 3.)


37. Some, but not all, States have legislation governing medical record confidentiality
and patient consent. These requirements vary widely and are increasingly inadequate i
an era of computerized medical records, interstate electronic transfers of information,
and changes in health senices delivery systems. These deficiencies concern a growing
number of consumer groups, professional organizations, and State and Federal
regulators. Among efforts to seek a Federal remedy is a recent legislative mandate to
HHS, contained in the recent health insurance reform legislation, to study ways to
protect confidentiality. Other legislative proposals addressing medical records
confidentiality have been under consideration in the Congress.

For further elaboration   on the issue and recent Federal activity, see:

       Beverly Woodward, PhD, “Sounding Board: The Computer-Based                Patient Record 

       and Confidentiality,” The New England Journal of Medicine, 

       333 (November 23, 1995) 21: 1419-1422. 


       Leigh Page, “All sides want confidentiality,   but   dispute   the “how to”,”American 

       Medical News, January 1, 1996, 1,7. 


       “Insurance Bill Forces Privacy Issue,” Medicine & Health, 50 (August 12, 1996)
       32: 1.


38. The legislatures in many States and the Congress have been inundated recently with
legislative proposals for regulating managed care plans in ways intended to inform and
protect consumers. For a summary of recent activity, see “Backlash: How Worried
Should Health Plans Be?,” Perspectives, Medicine & Health, June 3, 1996.

See also Note 30 for comment about recent activity of States’ Attorneys General.


                                              E- 12 

Finally, several professional, consumer, and research organizations have articulated
guidelines and principles addressing patients’ rights and responsibilities in managed
health care settings. While they address health care generally, most are applicable to
pharmacy services in particular. Among these publications are:

       (1) 	   National Health Council, Putting Patients First - Patients’ Rights &
               Responsibilities, Washington, D.C.

       (2) 	   National Consumers League, Questions To Ask - Taking Charge of Your
               Health, Washington,      D.C. The section entitled “Questions to Ask About
               Your Health Plan” includes several questions about health plans’ pharmacy
               benefits, in particular.

       (3) 	   American  Pharmaceutical Association, Guidelines for Medication Incentive
               Programs, Washington, D.C., 1995. See also Apha’s Principles of Practice
               for Pharmaceutical Care, 1995.

       (4) 	   Council on Ethical and Judicial Affairs, American Medical Association,
               “Ethical Issues in Managed Care,” Journal of the American Medical
               Association, 273 (January 25, 1995) 4: 330-335. This document includes
               guidelines addressing principles for disclosure of plans’ benefits packages
               and financial incentives for physicians. See also AMA’s Policy A-95,
               “Managed Care Cost Containment Involving Prescription Drugs.”

      (5) 	    Institute of Medicine, Improving the Medicare Market - Adding Choice and
               Protections, National Academy Press, Washington, D.C., 1996. This report
               makes recommendations specific to the Medicare managed care program.
               Among them are recommendations that specify the types of information
               that should be made available to beneficiaries about the health plan
               benefits, including pharmacy, and that call for the prohibition of “anti-
               criticism clauses or gag rules.”


39. This analysis excludes those HMOs that purchase only claims processing services and
those who have contracted with a PBM for less than one year.


40. The recently issued HCFA report on PBMs states:

      Quality. As in other sectors of the health care arena, competition among PBMs
      for clients centers on price, not quality. Purchasers (i.e., plan sponsors) are not
      insisting on sophisticated quality measurements and reporting requirements from
      PBMs because their attention is riveted on containing drug costs. (See Contract
      HCFA-95-023/PK, September 30, 1996, 124-125.)



                                             E- 13 

41. States do not license PBMs, although, of course, they all license managed care
organizations. Several State legislatures have standing committees or special task forces
focussed on managed care.

The National Association of Insurance Commissioners (NAIC) is developing a series of
model acts and regulations for State insurance agencies to use with health plans. These
models do not address pharmacy or PBMs directly, although they could apply indirectly.
These model acts focus on the adequacy of managed care plan networks, professional
credentialing verification, grievance procedures, confidentiality of health information,
utilization review, and quality assessment and improvement.


42. The JCAHO does review pharmacy programs based in hospitals and home care
organizations and free-standing pharmacies that serve long-term care facilities.


43. Among the organizations     developing guidelines and standards are:

       Academy of Managed Care Pharmacy:         Guidelines for Good Managed Care
       Pharmacy Practices, 1995.

       American Pharmaceutical     Association: Principles of Practice for Pharmaceutical
       Care, 1995;   Guidelines for Medication Incentive Programs, 1995.

       American Society of Health-System     Pharmacists:   Practice Standards of ASHP,
       1995-96.


44. A recent study focussed on the practices of several large, private employer groups
who use PBMs. The researchers report a striking lack of familiarity among these private
sector payers with their PBMs’ policies and practices. Only half discussed closed or open
formulary choices with their PBMs; none reported having input into the formulary
development or knowledge of the criteria used by the PBMs in developing their
formularies. The researchers conclude by urging greater accountability for PBMs and
identify approaches for achieving it. (See Kevin A. Schulman, MD et al., “The Effect of
Pharmaceutical Benefits Managers: Is It Being Evaluated?,” Annals of Internal Medicine,
124 (May 1996) 10: 906-913.)




                                             E - 14 

